U.S. Department of Agriculture
 Office of Inspector General
     Food Safety Initiative
  Meat and Poultry Products



   FOOD SAFETY AND INSPECTION
            SERVICE
LABORATORY TESTING OF MEAT AND
      POULTRY PRODUCTS




                     Report No.
                     24601-1-Ch
                     June 2000
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                 OFFICE OF INSPECTOR GENERAL

                                     Washington D.C. 20250




DATE:        June 21, 2000

REPLY TO
ATTN OF:     24601-0001-Ch

SUBJECT:     Laboratory Testing of Meat and Poultry Products

TO:          Thomas J. Billy
             Administrator
             Food Safety and Inspection Service

ATTN:        Margaret O’ K. Glavin
             Associate Administrator


This report presents the results of our audit of the Food Safety and Inspection Service’ s
laboratory operations and activities. This review is part of the Office of Inspector
General’ s food safety initiative, which also included the implementation of the Hazard
Analysis and Critical Control Point System, District Enforcement Operations’ compliance
activities, and the agency’ s controls to ensure the safety of imported meat products. Your
response to the official draft report, dated June 1, 2000, is included as exhibit B with
excerpts and the Office of Inspector General’ s position incorporated into the Findings and
Recommendations section of the report. Based on your response, management decisions
have been reached on Recommendations Nos. 1, 2, 4, 6, 7, 8, 9, 11, 13, 14, 15, and 16.
Please follow your agency’ s internal procedures in forwarding documentation for final
action to the Office of the Chief Financial Officer.

Management decisions have not been reached on Recommendations Nos., 3, 5, 10, 12,
and 17. Management decisions can be reached once you have provided the additional
information outlined in the report sections, OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and the timeframes for implementation
of the remaining recommendations. Please note that the regulation requires management
decisions to be reached on all recommendations within 6 months of report issuance.


/s/
ROGER C. VIADERO
Inspector General
                    EXECUTIVE SUMMARY
                        LABORATORY TESTING
                   OF MEAT AND POULTRY PRODUCTS
                     AUDIT REPORT NO. 24601-1-Ch

                                     This report presents the results of our
      RESULTS IN BRIEF               audit of the Food Safety and Inspection
                                     Service’s (FSIS) laboratory activities and
                                     operations as administered by the FSIS
         Office of Public Health and Science (OPHS). This review was part of
         the Office of Inspector General’s (OIG) food safety initiative, which
         also included the implementation of the Hazard Analysis and Critical
         Control Point System, the controls over imported meats, and District
         Enforcement Operations compliance activities. The objective of our
         audit was to evaluate whether FSIS had effective quality control
         procedures in place to ensure that all product is subject to testing,
         and that all laboratories performing tests of official product samples
         are adhering to applicable standards and are producing timely and
         accurate test results.

           We found that the three FSIS field laboratories we visited were
           generally following the procedures prescribed by the agency and by
           the Association of Analytical Chemists (AOAC) when performing tests
           for pathogens, residues, food chemistry, and species identification on
           product samples obtained from meat and poultry slaughtering and
           processing establishments.      In addition, the laboratories were
           producing timely and accurate test results. They correctly analyzed
           180 unmarked samples we sent to them to determine if they could
           detect the presence or absence of the bacteria Salmonella and E.
           coli 0157:H7.

           However, our review raised several important questions about the
           thoroughness of FSIS’ sample testing since not all meat and poultry
           products prepared for the marketplace are subject to sample testing.
           Specifically, we noted the following control weaknesses:

           •   The database of meat and poultry establishments maintained by
               OPHS did not list all establishments which should have been
               subject to testing. Our reviews of 4 of the 11 “sampling frames,”
               each of which is intended to list all establishments whose products
               are subject to testing under the various sampling projects,
               disclosed that the number of establishments listed was

USDA/OIG-A/24601-0001-Ch                                        Section II, Page i
                  understated by at least 31 percent. For instance, in our visit to
                  one of FSIS’ 17 district offices, we determined that there were at
                  least 97 establishments in the area served by that office which
                  produced processed meat and poultry products. FSIS sampling
                  frames listed only 48 of the 97 establishments. Any establishment
                  not included in its proper “sampling frame” cannot have product
                  selected for microbiological or species identification testing.
                  Undetected species mislabeling may affect individuals with dietary
                  or religious needs; undetected pathogens may have their greatest
                  effect on infants and the elderly.

              •   FSIS laboratories do not consistently test product samples from
                  all the establishments in FSIS’ sampling frames. We found that
                  inspectors do not respond, on average, to 24 percent of OPHS’
                  requests for samples to test. Although FSIS oversamples to
                  ensure adequate numbers of test results, the degree of
                  nonresponse leaves gaps in the sources of samples. In our
                  review of 1,401 establishments for which product samples were
                  requested under 3 sampling frames during the period January-
                  May 1999, FSIS inspectors at 419 establishments (29 percent)
                  did not respond to 2 or more requests for samples during the 5-
                  month period of our review. Inspectors at 197 establishments
                  (14 percent) did not respond to one or more requests during 3 or
                  more months of our review period.

              Two other deficiencies in FSIS’ testing program affected the testing
              of product. Late deliveries of test samples to the laboratories
              resulted in discarded samples, and tests for nitrosamines did not
              ensure that all meat capable of containing the carcinogen was tested.

              •   We found that FSIS’ overnight courier did not always provide next-
                  day delivery of samples to laboratories on weekends. Salmonella
                  samples for carcass products must be analyzed no later than the
                  day after collection; otherwise, they must be discarded without
                  being tested.

              •   Although FSIS regulations require that bacon products be tested
                  for the presence of nitrosamines, the agency did not have a list of
                  establishments that produced those products and did not even
                  know the number of such establishments under FSIS inspection.
                  Laboratory tests performed on samples from 34 different
                  establishments during a 21-month period revealed that all
                  contained nitrosamines, although none exceeded the established
                  tolerance level. However, products from many establishments are
                  not tested. At one FSIS district office with at least 30 bacon-

Section II, Page ii                                    USDA/OIG-A/24601-0001-Ch
               producing plants, only 2 such plants had product tested during the
               period of our review.

           We also found that FSIS’ quality assurance activities needed to be
           strengthened. The separate Quality Assurance Branches (QAB) that
           report to FSIS’ Microbiology Division and Chemistry and Toxicology
           Division are responsible for monitoring the field laboratories through a
           combination of onsite field reviews and the periodic assessment of
           the laboratories’ performance in analyzing “check samples” which
           contain known types and quantities of pathogens such as Salmonella,
           E. coli, and Listeria monocytogenes. We found that controls needed
           to be improved in several areas:

           •   The Microbiology Division’s QAB did not ensure that onsite visits
               were conducted on a regular basis or that the results of these
               visits and of check samples were communicated to the
               laboratories. The QAB also did not ensure that laboratories
               responded to its review reports as required, or that they took
               corrective actions to address deficiencies identified by QAB.

           •   FSIS uses rapid “screening” test kits as part of its Salmonella
               testing program because the large number of tests required by the
               Hazard Analysis and Critical Control Points Program could not
               feasibly be done using the traditional culture and biochemical
               methods. However, the agency procured approximately 55,000
               test kits that did not meet contract specifications, despite QAB
               tests that showed that the kits would fail to indicate the presence
               of Salmonella at more than twice the rate allowed by contract
               specifications. We issued a management alert to FSIS on this
               issue, and the agency is taking corrective actions to address the
               problem.

           We consider issues involving controls over collection and testing of
           product samples from FSIS-inspected establishments to be material
           internal control weaknesses. As such, to ensure their prompt
           attention and correction, they should be included in the agency’s
           annual management reports required under the Federal Manager’s
           Financial Integrity Act (FMFIA).

           Finally, we determined that laboratories need to better document their
           operations to assure that tests are performed according to FSIS
           standards and that test results are accurate. Two of the three
           laboratories we visited did not always document all steps in their
           analyses, including incubation times and temperatures. Also, the



USDA/OIG-A/24601-0001-Ch                                        Section II, Page iii
              laboratories did not always document equipment maintenance,
              including sterilization and calibration.

                                     We recommend that FSIS institute
  KEY RECOMMENDATIONS                stronger procedures and controls to
                                     ensure that all meat and poultry
                                     establishments under Federal meat and
         poultry inspection acts are subject to product testing, and that FSIS
         inspectors at establishments selected for testing respond to sampling
         requests in all instances to ensure that FSIS’ laboratory testing
         programs encompass the agency’s entire universe of FSIS-inspected
         establishments. We also recommend that the agency strengthen its
         quality assurance programs to ensure that all FSIS and accredited
         laboratories are in full compliance with all applicable standards and
         are producing valid and supportable analytical results.

                                      FSIS generally agreed with the findings
      AGENCY RESPONSE                 and recommendations as presented,
                                      except as otherwise noted in the Agency
                                      Response sections of the report. As one
          of its general comments, FSIS officials stated that the report
          prematurely uses the International Organization for Standardization
          (ISO) Guide 17025 as a standard for FSIS laboratories. They
          believed that the agency’s current standards were still valid, and were
          still being met.

              FSIS’ response to the official draft report, dated June 1, 2000, is
              included in its entirety as exhibit B of the audit report.

                                       Based on the information provided in
          OIG POSITION                 FSIS’ response, we have reached
                                       management          decisions       on
                                       Recommendations Nos. 1, 2, 4, 6, 7, 8,
            9, 11, 13, 14, 15, and 16. Management decisions have not yet been
            reached for Recommendations Nos. 3, 5, 10, 12, and 17.

              As we stated to FSIS officials in previous meetings, OIG audited
              against FSIS’ internal operating procedures wherever possible.
              However, we did make reference in several areas of the report to
              ISO Guide 17025 because FSIS either had not implemented its own
              procedures to cover certain areas of its operations or relied on draft
              procedures as described in Findings Nos. 6, 8 and 9. The relevance
              of the ISO Guide 17025 standards to the FSIS laboratories is also
              described in the Background section of the report.



Section II, Page iv                                   USDA/OIG-A/24601-0001-Ch
                                  TABLE OF CONTENTS

EXECUTIVE SUMMARY .......................................................................................... i
  RESULTS IN BRIEF ............................................................................................. i
  KEY RECOMMENDATIONS ............................................................................... iv
  AGENCY RESPONSE ........................................................................................ iv
  OIG POSITION .................................................................................................. iv
TABLE OF CONTENTS.......................................................................................... v
INTRODUCTION .................................................................................................... 1
  BACKGROUND .................................................................................................. 1
  OBJECTIVES ..................................................................................................... 6
  SCOPE............................................................................................................... 6
  METHODOLOGY................................................................................................ 7
FINDINGS AND RECOMMENDATIONS................................................................... 9
  CHAPTER 1........................................................................................................ 9
  CONTROLS OVER THE COLLECTION AND TESTING OF PRODUCT SAMPLES
  NEED TO BE IMPROVED ................................................................................... 9
  FINDING NO. 1................................................................................................. 10
  RECOMMENDATION NO. 1 .............................................................................. 13
  RECOMMENDATION NO. 2 .............................................................................. 14
  FINDING NO. 2................................................................................................. 14
  RECOMMENDATION NO. 3 .............................................................................. 17
  RECOMMENDATION NO. 4 .............................................................................. 18
  FINDING NO. 3................................................................................................. 19
  RECOMMENDATION NO. 5 .............................................................................. 20
  FINDING NO. 4................................................................................................. 21
  RECOMMENDATION NO. 6 .............................................................................. 23
  CHAPTER 2...................................................................................................... 25
  QUALITY ASSURANCE ACTIVITIES NEED TO BE STRENGTHENED ................ 25
  FINDING NO. 5................................................................................................. 26


USDA/OIG-A/24601-0001-Ch                                                                                       Page v
                                 TABLE OF CONTENTS
  RECOMMENDATION NO. 7 .............................................................................. 28
  FINDING NO. 6................................................................................................. 29
  RECOMMENDATION NO. 8 .............................................................................. 32
  FINDING NO. 7................................................................................................. 33
  RECOMMENDATION NO. 9 .............................................................................. 34
  RECOMMENDATION NO. 10 ............................................................................ 35
  RECOMMENDATION NO. 11 ............................................................................ 35
  FINDING NO. 8................................................................................................. 36
  RECOMMENDATION NO. 12 ............................................................................ 38
  FINDING NO. 9................................................................................................. 39
  RECOMMENDATION NO. 13 ............................................................................ 40
  CHAPTER 3...................................................................................................... 43
  BETTER CONTROLS OVER LABORATORY DOCUMENTATION AND
  SUPERVISORY REVIEWS ARE NEEDED........................................................... 43
  FINDING NO. 10 ............................................................................................... 43
  RECOMMENDATION NO. 14 ............................................................................ 47
  FINDING NO. 11 ............................................................................................... 47
  RECOMMENDATION NO. 15 ............................................................................ 49
  CHAPTER 4...................................................................................................... 51
  TIGHTER CONTROLS ARE NEEDED OVER THE ACCREDITED LABORATORY
  PROGRAM ....................................................................................................... 51
  FINDING NO. 12 ............................................................................................... 51
  RECOMMENDATION NO. 16 ............................................................................ 53
  RECOMMENDATION NO. 17 ............................................................................ 54
  EXHIBIT A – FSIS SAMPLING PROJECTS ........................................................ 57
  EXHIBIT B – AUDITEE RESPONSE TO DRAFT REPORT .................................. 58
ABBREVIATIONS................................................................................................. 97
GLOSSARY OF TERMS....................................................................................... 98




Section II, Page vi                                                   USDA/OIG-A/24601-0001-Ch
                          INTRODUCTION

                                    The Food Safety and Inspection Service
       BACKGROUND                   (FSIS) was established by the Secretary
                                    of Agriculture on June 17, 1981. The
                                    mission of FSIS is to ensure that the
         Nation’s commercial supply of meat, poultry, and egg products is
         safe, wholesome, and correctly labeled and packaged as required by
         the Federal Meat Inspection Act, the Poultry Products Inspection Act,
         and the Egg Products Inspection Act.

           FSIS laboratory activities include analyses of official product samples
           obtained from meat and poultry establishments under a variety of
           testing programs. These analyses include microbiology tests for
           pathogens such as Salmonella and E.coli, tests for antibiotic and
           chemical residues, food chemistry tests for fat content and for
           additives such as water and salt, and tests to verify the species of
           meat or poultry contained in product samples.

           FSIS’ Office of Public Health and Science (OPHS) provides
           microbiological, chemical, and toxicological expertise, leadership, and
           quality assurance and control for the agency. (See chart, next page.)
            OPHS also oversees field laboratory services for the agency. Within
           OPHS, two divisions are central to laboratory activities. The
           Chemistry and Toxicology Division provides scientific expertise to
           FSIS in chemistry, toxicology, and related science disciplines. It also
           manages the Accredited Laboratory Program and administers and
           provides technical expertise in quality assurance and quality control
           programs for FSIS laboratories through its Quality Assurance Branch
           (QAB), located in Washington, D.C. The Microbiology Division
           provides microbiological expertise regarding food borne pathogens,
           farm-to-table safety, and related public health issues. It plans and
           implements microbiological and analytical programs for the field
           support laboratories and administers microbiological quality
           assurance and quality control through its QAB, located in Athens,
           Georgia, to assure reliability of analytical data generated by FSIS
           laboratories.     It also provides expert scientific support for
           investigations or foodborne disease outbreaks, extraneous materials
           detection, and other public health hazards.




USDA/OIG-A/24601-0001-Ch                                       Section II, Page 1
                      About 7,400 full-time inspectors operating in approximately
                      6,200 federally inspected establishments throughout the United States
                      assist FSIS in carrying out its mission. It is their responsibility to
                      monitor the slaughter and processing of all meat and poultry products
                      produced for interstate commerce in the United States.

Figure 1: FSIS Office Of Public Health and Science

                                                                   OFFICE
                                                                     OF
                                                        PUBLIC HEALTH AND SCIENCE




                                  SCIENTIFIC RESEARCH
                                       OVERSIGHT
                                         STAFF




       EPIDEMIOLOGY AND                                                                                      CHEMISTRY AND
       RISK ASSESSMENT                            MICROBIOLOGY                                                TOXICOLOGY
           DIVISION                                     DIVISION                                                DIVISION




        FOOD HAZARD           EMERGING              QUALITY                 SPECIAL PROJECTS      EMERGING                    QUALITY
        SURVEILLANCE          MICROBIAL            ASSURANCE                   & OUTBREAK          ISSUES                    ASSURANCE
           DIVISION             ISSUES                  BRANCH                SUPPORT LAB.         BRANCH                     BRANCH
                               BRAMCH




           EMERGING
        PATHOGENS AND
           ZOONOTIC
         DISEASES DIV.                                                                              FIELD SERVICE
                                                                                                    LABORATORIES



         EMERGENCY
          RESPONSE
           DIVISION                                                                  EASTERN         MIDWESTERN               WESTERN
                                                                                  LABORATORY        LABORATORY               LABORATORY



                                                                                  REGULATORY         REGULATORY              REGULATORY
                                                                                   CHEMISTRY          CHEMISTRY               CHEMISTRY
                                                                                     SECTION          SECTION                 SECTION




                                                                                  MICROBIOLOGY      MICROBIOLOGY           MICROBIOLOGY
                                                                                     SECTION          SECTION                 SECTION




                                                                                    PATHOLOGY
                                                                                     SECTION




Section II, Page 2                                                                               USDA/OIG-A/24601-0001-Ch
           In addition to the inspectors, 3 field service laboratories and
           126 accredited laboratories provide analytical service support. The
           field service laboratories, located in Athens, Georgia; St. Louis,
           Missouri;    and    Alameda,     California,    provide   pathological,
           microbiological, chemical, and other scientific examination of meat,
           poultry, and egg products for disease, infection, extraneous materials,
           drug and other chemical residues, or other types of adulterants.

           In Calendar Year (CY) 1998, the three field service laboratories
           performed 729,661 analyses of 167,500 samples.           Of the
           126 accredited laboratories, 44 accredited laboratories analyzed
           681 samples during the same period.

           As part of their inspection duties, FSIS inspectors collect ready-to-eat
           and other processed product samples to be tested by the
           laboratories for the presence of pathogens and toxins. Since 1987,
           FSIS has conducted monitoring programs to identify the presence of
           Listeria monocytogenes and Salmonella in fully cooked, ready-to-eat
           meat and poultry products. Since proper cooking should destroy
           these pathogenic bacteria, a finding of these organisms in fully
           cooked, ready-to-eat products leads to regulatory action by FSIS. In
           Fiscal Year (FY) 1995, a monitoring program for E.coli O157:H7 in
           cooked meat patties was initiated. Thirteen separate subsamples are
           analyzed from each product lot submitted by inspectors. In FY 1998,
           dry and semi-dry ready-to-eat fermented sausages were added to
           the E.coli O157:H7 testing program.

           In addition to the collection of ready-to-eat and other processed
           product samples, inspectors collect raw product samples for
           Salmonella testing. Microbiological standards for raw products did
           not exist prior to July 1996 (with the exception of the monitoring
           program for E.coli O157:H7 in raw ground beef, which was initiated in
           FY 1995). On July 25, 1996, FSIS issued its landmark rule,
           Pathogen Reduction: Hazard Analysis and Critical Control Point
           (HACCP) Systems. The new, science-based system is designed to
           improve food safety and make better use of agency resources. In
           addition, the final rule established pathogen reduction performance
           standards for Salmonella in raw meat and poultry products. The
           FSIS inspectors collect the raw meat and poultry product samples
           from establishments and send them to the laboratories for
           Salmonella testing, in order to verify that establishments are meeting
           the pathogen reduction performance standards. Pathogen reduction
           performance standards for raw products are an essential component
           of FSIS’ food safety strategy because they provide a direct measure
           of progress in controlling and reducing the most significant hazards

USDA/OIG-A/24601-0001-Ch                                        Section II, Page 3
             associated with raw meat and poultry products. Accordingly, the
             collection of samples in establishments by inspection program
             personnel is a significant agency priority.

             Due to the addition of the large number of samples collected by
             inspectors under HACCP, the field service laboratories are using
             commercial test kits to perform an Enzyme-Linked Immunoassay
             (ELISA) test that screens each HACCP sample for the presence of
             Salmonella. The test identifies samples that are presumptively
             positive for Salmonella. The remaining samples are not tested further
             and are reported as negative. The samples that are presumptively
             positive will be tested using traditional laboratory procedures.

             In addition to the collection of samples to be tested for pathogens and
             toxins, FSIS conducts the National Residue Program (NRP) for
             domestic products. The NRP is a multi-component analytical testing
             program for residues in domestic and imported meat, poultry, and
             egg products. The NRP provides a variety of sampling plans to verify
             that slaughter establishments are fulfilling their responsibilities under
             HACCP for preventing violative residues. The range of chemical
             compounds considered for inclusion in the various NRP testing
             programs is comprehensive in scope. It includes approved and
             unapproved pharmaceutical drugs and pesticides known or suspected
             to be present in food animals in the U.S. and in countries exporting
             products to the U.S. It also includes any other xenobiotic or naturally
             occurring compounds that may appear in meat, poultry, and egg
             products and that may pose a potential human health hazard.

             FSIS uses several information systems to schedule the collection of
             samples for laboratory testing. The Performance Based Inspection
             System (PBIS) is used for scheduling regulatory inspection activities
             and reporting inspection findings. The Microbiological and Residue
             Computer Information System (MARCIS) is a consolidated database
             of analyses performed at the laboratories. In addition, for each
             sampling project, FSIS maintains a “sampling frame,” which is a listing
             of establishments that produce products designated for testing by the
             sampling projects.     The various divisions within OPHS provide
             information to the computer specialists regarding the numbers and
             types of products to sample and when. All of this information enables
             FSIS Headquarters to schedule the microbiology and residue
             samples. PBIS schedules the food chemistry samples.

             A unified sampling form, FSIS Form 10,210-3, is used by inspectors
             for all directed sampling projects (microbiological, chemical, and
             residue) with the exception of the PR/HACCP Salmonella sampling

Section II, Page 4                                     USDA/OIG-A/24601-0001-Ch
           program. The sampling projects and the unified form establish a
           uniform system for sample collection and transmittal of samples to
           laboratories. The use of the new form and system will facilitate the
           eventual electronic transfer of sampling requests and the tracking of
           samples in the laboratories. When the form is sent to inspectors,
           certain blocks are pre-preprinted with information specific to the
           sample to be collected. Sample collectors are required to complete
           Part II of the form and send it with the sample to the specified
           laboratory. If for any reason samples are not collected, sample
           collectors are to complete blocks 29-33 of Part II and send the form
           to the specified laboratory.

           The International Organization for Standardization (ISO) Standard
           17025 (which replaced ISO Guide 25) details the most
           comprehensive set of requirements for testing and calibration
           laboratories.    The FSIS Field Laboratories are not currently
           accredited by the ISO, and FSIS officials stated that few if any
           government food-testing laboratories in the United States possess
           such accreditation. However, FSIS has underway an initiative whose
           goal is to achieve accreditation under ISO Standard 17025.

           ISO standards require that laboratories ensure the quality of results
           provided to clients by implementing checks, such as participation in
           proficiency testing. FSIS uses proficiency testing to monitor the
           quality and accuracy of analytical results from its laboratories. This
           testing provides an essential quality management tool that avoids bias
           and ensures accurate and reliable data. On a quarterly or semiannual
           basis, each FSIS field laboratory receives a series of proficiency
           check samples for analysis. Once the check samples have been
           tested, the results are reported to the QAB, which grades the
           laboratory’s performance and forwards the graded results to FSIS
           Headquarters. After a review of the results, Headquarters forwards
           the results to the laboratory. It is the responsibility of Headquarters
           to ensure that the laboratory takes any necessary corrective actions.

           ISO also requires that laboratories arrange for reviews of their
           activities at appropriate intervals to verify that operations continue to
           comply with the requirements of the quality system. FSIS guidelines
           require that QAB perform onsite reviews of each laboratory at least
           twice a year. These reviews are to cover all critical procedures and
           functions that are part of the daily routine of the laboratory.

           The laboratories use the Microbiology Laboratory Guidebook (MLG)
           for the microbiological analysis of meat, poultry, and egg products
           that fall under the jurisdiction of USDA. It contains methods that the

USDA/OIG-A/24601-0001-Ch                                         Section II, Page 5
             FSIS laboratories are to use for the isolation and identification of
             pathogens including Salmonella, E.coli O157:H7, Campylobacter
             jejuni/coli, Listeria monocytogenes, Clostridium perfringens, and
             Staphylococcal enterotoxins in meat, poultry, and egg products. In
             addition, it contains methods for the detection and identification of
             extraneous materials in these foods.

             The Analytical Chemistry Laboratory Guidebook—Food Chemistry is
             the reference book of regulatory methods for the analysis of meat
             and poultry products.

             The FSIS laboratories are currently moving toward accreditation
             under ISO Standard 17025. This is a recognition of laboratory
             competence, and requires that each laboratory have a quality system
             in place for critical materials, organization and management, reviews
             for compliance with quality systems, personnel education and training,
             calibration of critical equipment and materials, test methods, and
             records.    FSIS has estimated that the ISO Standard 17025
             accreditation process will take 1 to 1-1/2 years. We believe that
             FSIS needs to accomplish this as expeditiously as possible.

                                        The overall audit objective was to
           OBJECTIVES                   determine whether all meat and poultry
                                        products were subject to testing, and if
                                        FSIS’ quality assurance over laboratory
            activities ensured that field service and accredited laboratories
            maintained sample integrity through proper handling and security, and
            conducted tests in a timely and accurate manner. Specifically, we
            determined whether: (1) FSIS Headquarters effectively scheduled
            samples to be collected, and effectively administered their quality
            assurance program; and (2) the field service laboratories used
            prescribed methods and procedures for tests, performed tests in a
            timely manner, properly documented all tests, and properly
            maintained their equipment.



                                          The audit fieldwork was performed at the
              SCOPE                       FSIS National Office in Washington, DC;
                                          the three field service laboratories,
                                          located in Athens, Georgia; St. Louis,
             Missouri; and Alameda, California; the Quality Assurance Branch for
             Microbiology, located in Athens, Georgia; the Special Projects and
             Outbreak Support Laboratory, located in Athens, Georgia; and one
             FSIS district office located in Pickerington, Ohio. We also utilized

Section II, Page 6                                   USDA/OIG-A/24601-0001-Ch
           information collected at three meat and poultry establishments that
           were visited as part of the OIG Southeast Region’s audit of HACCP.
           We performed the fieldwork from May 1999 through December 1999.

           We selected statistical and judgmental samples of 190 food
           chemistry, microbiology, and residue laboratory tests out of about
           181,000 that were performed between January 1998 and April 1999
           for review.

           We also reviewed 4 of the 11 sampling frames in FSIS’ database for
           accuracy and completeness, and reviewed the MARCIS listings of
           sampling requests and associated responses for a 5-month period in
           1999.

           We conducted this audit in accordance with Generally Accepted
           Government Auditing Standards.

                                      At the National Office and the Quality
                                      Assurance Branch for Microbiology, we
       METHODOLOGY                    analyzed documents and conducted
                                      interviews with FSIS officials.    We
         reviewed FSIS policies and procedures regarding the types of tests
         being performed, the methods for selecting samples to be collected,
         and the quality assurance programs in place in the microbiology,
         residues, and food chemistry areas, to ensure the laboratories
         performed timely and accurate analyses of meat and poultry
         products.    We also reviewed the information provided by the
         Microbiological and Residue Computer Information System
         (MARCIS), which is used to track the processing of scheduled
         microbiological, residue, and food chemistry samples.

           At the Special Projects and Outbreak Support Laboratory, we
           conducted interviews and reviewed documentation of analyses
           performed.

           At the three field laboratories, we conducted interviews with
           laboratory directors, computer specialists, microbiologists and
           chemists-in-charge, quality control managers for microbiology and
           chemistry, analysts, and other staff, and reviewed supporting
           documentation. We also observed laboratory procedures in the
           areas of: (1) computer input of sample information; (2) sample
           receiving activities; (3) media preparation; and (4) microbiology, food
           chemistry, and residue testing procedures. For our samples of tests
           performed, we reviewed supporting documentation of the tests
           performed.

USDA/OIG-A/24601-0001-Ch                                       Section II, Page 7
             At the district office, we reviewed and analyzed documentation of the
             number of plants in the district and the types of products produced.

             In addition, in cooperation with another USDA agency, we contracted
             with a private, FSIS-accredited laboratory to send a total of 180
             unmarked check samples to the three field laboratories during
             November and December 1999, to verify the competence of the
             laboratories to detect the presence of Salmonella and E.coli 0157:H7
             in product samples.

             We also used the scientific expertise of this other USDA agency to
             evaluate the laboratory standards, policies, and procedures of FSIS.




Section II, Page 8                                  USDA/OIG-A/24601-0001-Ch
           FINDINGS AND RECOMMENDATIONS

                 CONTROLS OVER THE COLLECTION AND
 CHAPTER 1       TESTING OF PRODUCT SAMPLES NEED TO BE
                 IMPROVED

           FSIS’ Office of Public Health and Science (OPHS) selects the
           establishments from which products will be sampled each month. To
           identify its “universe” of meat and poultry establishments from which
           to select product samples for testing, FSIS maintains separate
           databases that list the establishments that could be selected under
           the various program areas. OPHS uses a computerized database to
           select establishments for product testing. This database contains
           separate listings of establishments, referred to as “sampling frames,”
           which categorize establishments by the type of product they produce.
            A separate sampling frame is maintained for 11 different pathogen
           and species-identification monitoring projects (see exhibit A)
           administered by the various FSIS Headquarters divisions.

           We found that FSIS could not ensure that all plants under inspection
           were available to be selected for product sampling. We found that
           the sampling frames contained in the agency’s database were not all
           inclusive; for instance, in our review of one large sampling frame, we
           found that although 1,106 establishments were listed, at minimum it
           should have listed 1,606 establishments, an understatement of
           31 percent. We also identified 97 establishments that produced
           cooked, ready-to-eat poultry products at one of FSIS’ 17 district
           offices; however, a review of 11 sampling frames which should have
           included all of these establishments disclosed that only 48 were
           listed. Even though FSIS regulations require the agency to test bacon
           products for the presence of nitrosamines, a known carcinogen, FSIS
           could not provide us with a listing of establishments which produce
           this product, or even the number of such establishments under FSIS
           inspection.

           FSIS also did not have controls to ensure that its inspectors obtained
           all the necessary product samples for testing by the laboratories. We
           found that FSIS inspectors did not respond to 24 percent of the
           requests for product samples sent out by OPHS between January
           and May 1999, either in the form of product samples sent or
           explanations as to why the samples could not be obtained. OPHS

USDA/OIG-A/24601-0001-Ch                                       Section II, Page 9
             officials were aware of the high nonresponse rate and oversampled to
             ensure that enough analyses were performed to monitor overall
             product processing; however, FSIS cannot assure that products from
             untested establishments are complying with meat and poultry
             inspection requirements.         In addition, inspectors at many
             establishments did not respond to sampling requests on a repeated
             basis. Of 1,395 establishments selected for product sampling under
             3 sampling frames between January and May 1999, inspectors at
             419 establishments (30 percent) failed to respond to 1 or more
             requests during this period, while inspectors at 197 establishments
             (14 percent) failed to respond to 1 or more requests in 3 or more
             months.

             FSIS needs to ensure that all inspected establishments are subject to
             being selected for product testing, and that all sampled
             establishments are in fact being tested. Laboratory testing for
             pathogens and residues is an integral part of the agency’s monitoring
             system to ensure that meat and poultry establishments are
             maintained in sanitary condition and that their products are free from
             harmful contaminants.


                                     FSIS did not identify, for inclusion in its
       FINDING NO. 1                 testing programs, all establishments
                                     producing processed products designated
 FSIS NEEDS TO ENSURE THAT           for laboratory analyses. This occurred
  ALL ESTABLISHMENTS ARE             because FSIS did not have controls to
SUBJECT TO PRODUCT TESTING           ensure that FSIS inspectors updated the
                                     agency’s establishment information on the
          required basis, or to periodically review the agency’s databases to
          determine whether they include all establishments subject to testing
          under each category.        As a result, FSIS is not including all
          establishments in its various testing programs for microbiology,
          residues, food chemistry, and species identification. We found, for
          instance, that the 1,106 establishments included under one large
          sampling frame we reviewed were understated by at least 31
          percent.

             FSIS maintains a “sampling frame” (a listing of establishments that
             produce products of a designated type) for testing under each of the
             sampling projects. To maintain a complete and accurate sampling
             frame for each project, FSIS requires its inspectors at meat and
             poultry establishments to submit updated establishment information




Section II, Page 10                                  USDA/OIG-A/24601-0001-Ch
                   twice a year to FSIS Headquarters.1 When sample requests are
                   made from establishments that do not produce the designated
                   product the inspector reports to the laboratory that the product is no
                   longer available. The laboratory then passes this information to FSIS
                   Headquarters to remove the establishment from the sampling frame.

                   FSIS currently has 11 sampling projects (see exhibit A) that test for
                   pathogens and species identification in processed products from meat
                   and poultry establishments.    The number of samples scheduled for
                   the projects ranged from 45 samples for project MT01 (E.coli
                   0157:H7 in Ready-to-Eat Meat Patties) to 768 samples for project
                   ME15 (Listeria and Salmonella in Small Diameter Cooked Products).


                   We evaluated whether the sampling frames for pathogen and species
                   identification testing included all establishments that produced the
                   products designated for each type of testing. We compared the
                   sampling frames for sampling projects that included the same
                   designated products to determine if each sampling frame listed the
                   same establishments. In addition, at one district office, we compared
                   the office’s listing of processing establishments under its jurisdiction to
                   the comparable sampling frames to determine if the sampling frames
                   were all-inclusive for this area. We found that the sampling frames
                   used by FSIS to identify establishments whose products should be
                   sampled for each type of test were both inaccurate and incomplete.
                   Details of the conditions noted were as follows:

                   •        The sampling frame for project MM14, Cooked Product
                            Species Testing, lists 1,106 establishments that produce
                            cooked, processed product. We compared this to project
                            ME22, Salmonella/Listeria in Cooked Poultry Products, whose
                            sampling frame listed 472 establishments which produced
                            cooked, processed poultry products. The sampling frame for
                            project MM14 was larger because it included all
                            establishments producing cooked, processed meat and poultry
                            products, whereas that of ME22 would include only those
                            establishments producing cooked and processed poultry
                            products. Thus, all establishments listed in the sampling frame
                            for project ME22 should also have been included in the
                            sampling frame for project MM14.



1
    FSIS Directive 10230.3 Rev. 2



USDA/OIG-A/24601-0001-Ch                                                 Section II, Page 11
                      However, we found that the sampling frame for project MM14
                      included 131 establishments producing cooked, processed
                      poultry products that were not included in the sampling frame
                      for project ME22. Conversely, the sampling frame for project
                      ME22 contained 234 establishments that were not included in
                      the sampling frame for project MM14.

              •       The sampling frame for project ME15, Salmonella/Listeria in
                      Small Diameter Cooked Products, included 745 establishments
                      that also should have been listed in the sampling frame for
                      project MM14, Species Identification Testing in Cooked Meat
                      and Poultry Products. The sampling frame for project MM14
                      did not include 231 of the establishments identified by project
                      ME15’s sampling frame.

             •        The        sampling      frame     for     project     ME23,
                      Salmonella/Listeria/Staphylococcus     Aureus    in   Salads,
                      identified 126 establishments that should also be included in
                      the sampling frame for project MM14. The sampling frame for
                      project MM14 did not include 61 establishments identified by
                      the sampling frame for ME23.

             Overall we found that, after adjusting for establishments listed under
             more than one of the sampling frames, MM14 should have included
             1,606 establishments instead of the 1,106 that were listed, an
             understatement of 500 (31 percent).

             To further evaluate the accuracy of the above sampling frames, we
             visited one of the 17 FSIS district offices. Although the establishment
             information on file at the district office did not always clearly identify
             the products processed by the establishments, we were able to
             identify 97 establishments that produced processed meat and poultry
             products that should have been included in the sampling frames for 11
             projects designed to test for pathogens in ready-to-eat products or to
             conduct species testing in cooked products. The sampling frames for
             the 10 projects identified only 48 of the 97 establishments.

             During the period of January 1, 1999, through May 31, 1999, FSIS
             records showed that 593 sample requests could not be obtained
             because the establishments did not produce the products. At
             52 establishments the inspectors discarded the sample requests for 3
             or more months because the establishments did not process the
             designated product samples. FSIS did not follow up with the
             inspectors to determine whether these establishments were in the
             wrong sampling frames.

Section II, Page 12                                    USDA/OIG-A/24601-0001-Ch
           We discussed the above issues with the OPHS official who is
           responsible for sending out the sampling requests, and the official
           stated that FSIS does not have procedures in place to ensure that the
           sampling frames are kept current. The official explained that FSIS
           makes semiannual requests for its inspectors to submit updated
           information on their establishments. This information is transmitted
           electronically to OPHS, which in turn updates the sampling frame
           information. However, no record is maintained to show when the
           information was last updated and FSIS is unable to identify
           establishments whose information is incorrect or out of date. In
           addition, FSIS information systems do not identify products
           processed by specific meat and poultry establishments. As a result,
           FSIS cannot conduct a data base analysis to determine if the
           sampling frames include all applicable establishments.

           We consider this issue to be a material internal control weakness,
           since it directly impacts the agency’s ability to collect and test product
           samples from FSIS-inspected meat and poultry establishments. As a
           result, we believe that this should be included in the agency’s annual
           management report under the Federal Manager’s Financial Integrity
           Act (FMFIA).

                                     Develop a management system to track
  RECOMMENDATION NO. 1               each     inspector’s compliance   with
                                     requirements for semiannual updates to
                                     the sampling frames. Follow up with
       establishment inspectors who do not respond to ensure that sampling
       information is up-to-date for all establishments.

           FSIS Response

           FSIS officials responded that they would develop an approach to
           follow up with inspectors. For Salmonella testing, FSIS developed
           the Pathogen Reduction Enforcement Program (PREP) that will
           schedule, track, and report test results. One of this program’s
           features will provide followup with inspectors that do not provide
           information needed to update sampling frame information. FSIS
           officials stated that this program will be fully implemented by
           September 2000. For ready-to-eat (RTE) products, the sampling
           frames will be based on information in the PBIS. For E.coli 0157:H7
           and residue testing, plans are underway to incorporate PBIS plant
           profile data as the source for updating sampling frame information.
           OIG Position


USDA/OIG-A/24601-0001-Ch                                        Section II, Page 13
             We accept FSIS’ management decision.


                                   Develop a database that identifies and
  RECOMMENDATION NO. 2             segments all establishments producing
                                   products designated for sampling under
                                   the various sampling projects. Use this
       information to maintain current listings within the sampling frames for
       the sampling projects.

             FSIS Response

             FSIS stated that it would enhance the PBIS establishment profile by
             December 2000, to include all product information needed for
             sampling programs and require inspection personnel to keep that
             information up to date.

             OIG Position

             We accept FSIS’ management decision.


                                         FSIS does not track the disposition of
        FINDING NO. 2                    requests for monitoring samples sent to
                                         FSIS inspectors at meat and poultry
   FSIS NEEDS TO TRACK THE               establishments, or follow up in cases
   DISPOSITION OF PRODUCT                where     inspectors      neither   provide
     SAMPLING REQUESTS                   requested samples nor report their
                                         reasons for not doing so. FSIS has the
           ability to track the receipt of these responses, but the agency does
           not have operating procedures to perform this monitoring. FSIS does
           not require its inspectors to keep records of the receipt and
           disposition of requests, thus limiting its ability to follow up at a later
           date to determine why required samples have not been provided.

             FSIS inspectors did not respond to approximately 24 percent of the
             requests for monitoring samples, which include all samples from
             establishments other than those obtained under HAACP. Officials of
             OPHS stated that they oversample to account for the large number of
             non-responses. However, the agency’s failure to obtain responses to
             all sampling requests could allow problems to go undetected at
             establishments whose products go untested for significant periods of
             time. As previously mentioned, our review of the sampling frames for
             ME15, MM11, and MT02 for the period of January 1 through May 31,
             1999, showed that of 1,395 establishments selected for product

Section II, Page 14                                   USDA/OIG-A/24601-0001-Ch
           testing, the FSIS inspectors at 419 (30 percent) failed to respond to
           one or more sampling requests during 2 or more months. Inspectors
           at 197 establishments (14 percent) did not respond to one or more of
           the sampling requests sent during 3 or more months.

           FSIS currently has 11 sampling projects under which the agency
           performs about 71,000 laboratory tests annually for pathogens (such
           as Salmonella, E.coli, and Listeria monocytogenes) and species
           identification (which verifies the type of meat in sampled products) in
           product samples obtained from meat and poultry establishments. In
           addition, FSIS has a separate testing program under which laboratory
           tests are performed on both raw and processed products to detect
           the presence of residues such as chemicals and antibiotics, and food
           chemistry analyses which test for fat, protein, salt, and moisture
           content.

           Between January 1 and May 31, 1999, FSIS sent out a total of
           16,830 microbiology and 12,760 residue sample requests to FSIS
           inspectors. OPHS officials explained that the numbers of requests
           sent out are based on the historical needs of the FSIS Headquarters
           divisions that maintain and operate the pathogen/species identification
           sampling projects, as well as the separate testing program for
           residues and food chemistry. OPHS determines the number and type
           of sampling requests to be sent out each month in order to meet the
           needs of the various testing programs. Establishments that produce
           the specified products are sampled through non-statistical means
           from the database of establishments under FSIS inspection. Sampling
           requests for the products are sent to the FSIS inspectors at these
           establishments using FSIS Form 10210-3. The FSIS inspector
           receiving the request is required to provide the specified product
           within a stated time period as shown on the sample request form.
           The form also specifies the FSIS field laboratory to which the sample
           is to be sent, and provides any other specialized instructions
           applicable to a particular sampling request.

           In cases where the type of sample being requested is not available at
           the establishment during the time period specified on the request
           form, establishment inspectors are required to report this fact to the
           designated laboratory so that this information can be entered into the
           data base system. Justifiable reasons for not obtaining the requested
           sample include cases where the establishment is not operating during
           the specified time period, or where the establishment no longer
           produces the specified product. In the latter case, the inspector
           reports the product as being “never available,” which notifies FSIS



USDA/OIG-A/24601-0001-Ch                                      Section II, Page 15
             that further samples of that type should not be requested from that
             establishment.

             Under current FSIS procedures, the results from these tests are to be
             reported to FSIS Headquarters by the laboratories, so that the
             various FSIS Headquarters divisions can make use of the test results.
              However, positive test results for harmful pathogens and residues
             are also to be reported to the establishment inspector and the
             applicable FSIS district office, so that followup action such as further
             testing or enforcement actions can be taken.

             We found that FSIS inspectors at meat and poultry establishments
             frequently do not respond to the sampling requests, either by
             providing the required samples or the reason the samples could not
             be collected. Our review of the FSIS data base for the period of
             January 1 through May 31, 1999, showed that 16,830 sampling
             requests were sent out by OPHS in support of sampling projects
             relating to microbiology testing. However, for 4,376 of these
             (26 percent), no responses were received from the FSIS
             establishment inspectors.       Similarly, we found that out of
             12,760 sample requests for products to be tested for residues or
             food chemistry during this same time period, 2,714 (21 percent)
             received no responses. In addition, we reviewed the residue and
             food chemistry sample requests for the period of June 1 through
             September 30, 1999, and found that of 11,176 requests sent,
             2,528 (23 percent) received no response. In total, FSIS inspectors
             failed to respond to 9,618 requests (24 percent).

             According to the OPHS official responsible for handling the requests,
             an inspector’s non-response to sampling requests does not generate
             any followup by FSIS, even if an inspector does not respond on a
             repeated basis. Although FSIS’ computer system has the ability to
             identify and track non-responses to sampling requests, FSIS has no
             operating procedures in place to do this or to follow up with
             inspectors to get the requested samples. This official further stated
             that based on past response rates OPHS oversamples by
             approximately 25 percent to ensure that the requesting divisions
             receive a sufficiently large number of completed laboratory analyses
             to meet their needs. According to the OPHS official we interviewed,
             none of the Headquarters divisions which receive and utilize these test
             results have expressed concerns that they are not receiving enough
             test results for their purposes.

             In conjunction with OIG’s ongoing audit of the HACCP program, we
             attempted to reconcile OPHS’ computerized records of samples

Section II, Page 16                                   USDA/OIG-A/24601-0001-Ch
            requested and received at three slaughtering establishments. We
            found, however, that this could not be accomplished because the
            inspectors kept no records of the sampling request forms they had
            received or of any samples they had sent to the laboratories.
            According to both the inspectors and to the OPHS official,
            establishment inspectors are not currently required to keep such
            documentation. The Assistant Deputy Administrator in charge of
            OPHS expressed his concerns about the lack of records in this area.

            OPHS, through its policy of oversampling, was able to provide a
            sufficient number of test results to the various users. However,
            serious problems with individual establishment sanitation or product
            contamination could exist at establishments whose inspectors do not
            respond to sample requests for microbiological and residue testing.

            FSIS needs to implement controls and procedures to ensure that
            establishment inspectors respond to its requests for samples. In
            addition, the agency needs to ensure the individual accountability of
            FSIS inspectors at meat and poultry establishments by requiring them
            to maintain documentation of sample requests they receive, as well
            as the inspector’s actions to either fulfill the requests or report the
            reason why this could not be accomplished.

            We consider this issue to be a material internal control weakness,
            since it directly impacts the agency’s ability to collect and test product
            samples from FSIS-inspected meat and poultry establishments. As a
            result, we believe that this should be included in the agency’s annual
            management report under the FMFIA.


                                     Institute procedures to monitor the
  RECOMMENDATION NO. 3               responses to sampling requests on a
                                     monthly basis, and identify instances
                                     where inspectors do not respond. Where
       inspectors do not respond to sampling requests, require the district
       offices to follow up with the establishment inspectors to determine the
       reason for their failure to provide the required responses. In addition,
       perform immediate followup on the 197 establishments that failed to
       respond to 3 or more requests.




            FSIS Response



USDA/OIG-A/24601-0001-Ch                                         Section II, Page 17
             FSIS officials agreed that a better process is required to monitor the
             responses to sampling requests on a monthly basis, and identify
             instances where inspectors do not respond. They stated that by
             September 2000 they will expand their reporting system to alert FSIS
             officials of inspectors not responding to ready-to-eat sample
             requests, similar to what is in place for Salmonella Performance
             Standard sampling. They also stated that they are working to
             enhance FSIS’ e-mail system by including a quarterly summary that
             will be mailed to circuit supervisors listing all plants for which
             scheduled samples were not provided to the laboratories.

             OIG Position

             We concur with FSIS’ efforts to enhance its reporting systems to
             identify inspectors who do not respond to requests for product
             samples. However, FSIS officials did not address the issue of the
             197 establishments that failed to respond to 3 or more requests. To
             reach management decision, they need to provide us with a response
             to address this item.


                                         Implement a system which allows FSIS to
  RECOMMENDATION NO. 4                   track the status of sample requests,
                                         including their receipt and disposition by
                                         inspectors     at   meat    and     poultry
             establishments.

             FSIS Response

             FSIS agreed with the recommendation and will modify PBIS to track
             the status and disposition of sample requests. FSIS will create an
             official form, the “sample log”, for inspection personnel to use in
             tracking sample collection and submittal, and will change FSIS
             Directive 10,230.5 to include instructions on maintaining the log by
             December 2000.

             OIG Position

             We accept FSIS’ management decision




Section II, Page 18                                  USDA/OIG-A/24601-0001-Ch
                                        FSIS’ agreement with its overnight courier
          FINDING NO. 3                 service did not always ensure next-day
                                        delivery of Salmonella samples to the
    AGREEMENT WITH OVERNIGHT            field laboratories in cases where samples
    COURIER DID NOT GUARANTEE           were sent on Fridays or on days
    TIMELY WEEKEND OR HOLIDAY           preceding holidays. FSIS field officials
        DELIVERIES TO FIELD             had not been previously aware that
           LABORATORIES                 samples were not being given next-day
                                        delivery in these cases, and believed that
             their agreement required this. However, between January 1, 1999,
             and December 31, 1999, the field laboratories discarded about 10
             percent of the samples mailed on Fridays because of delayed
             shipments.

                    FSIS directives2 state that carcass samples must be picked up by the
                    overnight courier the same calendar day the sample is collected.
                    Carcass samples must be analyzed the day after collection. If a
                    Salmonella sample is not shipped on the same day it is collected, or
                    if the sample is not received by the laboratory on the day after
                    collection, laboratory procedures require that the sample be
                    discarded without being tested.

                    As a part of our audit, we sent unmarked (“blind”) check samples to
                    the field laboratories to be tested for the presence of Salmonella.
                    However, the field laboratories discarded all of the check samples
                    sent on the first Friday of our testing period because they were not
                    delivered until the following Monday. The FSIS official responsible for
                    our shipping arrangements stated that this should not have occurred,
                    since their contract required next-day delivery even if this involved
                    samples being delivered on Saturdays and holidays.

                    FSIS officials provided us with information that showed, during
                    calendar year 1999, that its overnight courier made 6,599 Saturday
                    deliveries of HACCP Salmonella samples to the field laboratories.
                    They also reported that 664 samples scheduled for Saturday delivery
                    were discarded due to “shipping delays” by the courier. This
                    represents approximately 10 percent of the Saturday deliveries of
                    HACCP samples for calendar year 1999. Overall, FSIS inspectors
                    sent over 61,000 Salmonella samples to the laboratories during this
                    period.




2
    FSIS Directive 10,230.5 dated 2/4/98.


USDA/OIG-A/24601-0001-Ch                                               Section II, Page 19
             Under HACCP requirements, FSIS inspectors at meat and poultry
             establishments may be required to send product samples on
             successive days, including Fridays and days preceding holidays, to
             complete a sample series. However, according to an official at FSIS’
             Technical Service Center, this may not always be possible for a
             variety of reasons such as an establishment not operating on certain
             days. Therefore, we believe that FSIS Headquarters officials need to
             determine whether or not next-day delivery of samples sent on these
             days is necessary for the agency’s laboratory testing program. If so,
             then FSIS needs to renegotiate its agreement with the overnight
             courier to ensure that these samples will reach the laboratories in
             time to be tested. If the agency determines that an alternative
             method is available to test establishments production so that it is not
             necessary to send samples on these days, FSIS Headquarters should
             notify the laboratories and all inspectors at meat and poultry
             establishments to discontinue shipments of product samples on these
             days.

                                    Determine whether it is necessary for
  RECOMMENDATION NO. 5              FSIS inspectors to be able to ship
                                    product samples to the field laboratories
                                    on Fridays and on days preceding
       holidays. Renegotiate the existing agreement with the overnight
       courier to ensure next-day deliveries of such shipments, or inform the
       laboratories and all FSIS inspectors to discontinue shipments of
       product samples on these days if alternative methods are developed
       to test products that are produced on these days.

             FSIS Response

             FSIS officials stated that they have determined that it is necessary for
             inspectors to ship samples on Fridays and on days preceding
             holidays for Salmonella analysis. However, the agency disagrees
             that further negotiation of the contract is necessary, since the GSA
             contract with the overnight courier does require Saturday delivery of
             samples if these are properly labeled. FSIS officials stated that they
             have had Saturday delivery of HACCP samples since the initiation of
             the HACCP Salmonella Program on January 26, 1998.                    All
             laboratories receive and process samples via the overnight courier on
             Saturdays and selected holidays. They stated that FSIS has
             experienced occasional problems with Saturday deliveries in a few
             very remote locations. They also stated that OIG may have
             experienced difficulty shipping samples due to the lack of “Saturday
             Delivery” labels.


Section II, Page 20                                   USDA/OIG-A/24601-0001-Ch
           Regarding holiday deliveries, FSIS maintains close contact with the
           overnight courier to determine which holidays the courier is not
           operating. In situations where the courier does not deliver on a
           particular holiday, FSIS notifies the inspectors in all HACCP
           establishments so that samples are not sent. Finally, FSIS officials
           stated that the overnight courier recently initiated a new process that
           does not require the use of special labels for Saturday delivery. A
           new flyer is being distributed to all FSIS inspectors immediately.

           OIG Position

           As noted in our finding, approximately 10 percent of all planned
           Saturday deliveries of HACCP samples in calendar year 1999 had to
           be discarded due to shipping delays by the overnight courier. We do
           not believe that such numbers can be explained by “occasional
           problems with Saturday deliveries in a few very remote locations,” as
           stated in the agency’s response. If the agreement with the courier
           does in fact guarantee Saturday deliveries, as FSIS officials contend,
           then the number of delayed shipments experienced by the agency
           should be considered excessive. As stated earlier to FSIS officials,
           the boxes containing the OIG check samples had the “Saturday
           Delivery” labels affixed to them, as provided to us by FSIS personnel.

           The FSIS response also states that the new process being
           implemented by the overnight courier does not require the use of
           special labels for Saturday delivery. However, the new instructions
           being sent to the FSIS inspectors at meat and poultry establishments
           (Attachment 4 of the response) clearly show that Saturday delivery
           labels are still used. Based on this information, it is not clear that
           there has been any significant change to the existing process that
           caused over 650 HACCP samples to be discarded untested in 1999.

           Overall, we do not believe that FSIS has satisfactorily addressed this
           recommendation. To reach a management decision, FSIS needs to
           provide us with assurances that the overnight courier is guaranteeing
           that all HACCP samples mailed on Fridays or on days preceding
           holidays will be received the following day by the laboratories.

                                        FSIS’ program to test for the presence
        FINDING NO. 4                  of nitrosamines, a carcinogen that can
                                       occur in bacon products, did not ensure
     TESTING PROGRAM FOR               that all establishments producing such
  NITROSAMINES NEEDS TO BE             products were subject to testing.
           IMPROVED                    Although such testing is a regulatory
                                       requirement, FSIS’ information systems

USDA/OIG-A/24601-0001-Ch                                      Section II, Page 21
                    did not include a database or sampling frame that grouped these
                    establishments for sample selection. Because of this, FSIS could not
                    identify the establishments producing products that may contain
                    nitrosamines. During the 21-month period between November 1997,
                    and July 1999, FSIS only requested one product sample apiece from
                    60 establishments; by contrast, one FSIS District Office alone had 30
                    bacon-producing establishments under inspection.          Of the 60
                    requested samples only 34 were actually tested, all of which were
                    found to contain low levels of nitrosamines. Because of the relatively
                    small number of tests performed, and the agency’s inability to identify
                    the universe of such establishments from which to draw its samples,
                    we question whether the regulatory requirement for testing of
                    nitrosamines was met.

                    Nitrosamines can occur in any bacon product where nitrite is used to
                    cure the meat and can be formed when the bacon is fried. To ensure
                    that bacon products are safe for consumers, FSIS issued regulations 3
                    that require the collection of bacon samples for testing to determine
                    nitrosamine levels, with samples to be collected randomly throughout
                    a selected production lot. FSIS has determined the unacceptable
                    level of nitrosamines in any product to be anything over 15 parts per
                    billion. In any instance where such levels are identified in a tested
                    product sample, the agency is responsible for taking enforcement
                    action that could include the recall of contaminated product from the
                    marketplace.

                    Between November 12, 1997, and July 8, 1999, FSIS conducted only
                    limited testing of bacon products for the presence of nitrosamines.
                    During this period, FSIS scheduled sample selections from 60
                    establishments. However, in 23 instances no samples were sent from
                    the selected establishments either because the inspectors failed to
                    respond to the sampling requests or because they reported that the
                    product was unavailable for testing. In 3 instances where the samples
                    were provided, valid results could not be obtained because of
                    “laboratory errors;” however, each of the 34 samples for which tests
                    were successfully completed showed nitrosamine levels of between
                    3.01 and 14.77 parts per billion. None of these test results exceeded
                    the tolerance level of 15 parts per billion, and thus no followup action
                    by FSIS was required. However, these test results indicate that the
                    presence of nitrosamines in bacon products is a common occurrence.
                     After July 8, 1999, no further samples were requested for
                    nitrosamines testing.


3
    9 CFR 318.7(b)(2).



Section II, Page 22                                          USDA/OIG-A/24601-0001-Ch
           FSIS officials were unable to provide us with a listing of
           establishments that produce bacon products that would be subject to
           testing for nitrosamines, or even the total number of such
           establishments that are currently under FSIS inspection.            This
           information was not available because FSIS has not compiled a
           sampling frame or other listing of such establishments; nor could such
           information be readily obtained from FSIS’ databases because these
           do not include information on the type of products produced by each
           establishment. However, during our review at one FSIS District
           Office, we identified at least 30 establishments within the district that
           were producing bacon products. Of those, only 2 had been selected
           for nitrosamines testing during the period of our review.

           We interviewed FSIS officials from each unit that has responsibilities
           in the area of nitrosamines testing, including the Eastern Field
           Laboratory, and the Scientific Research Oversight Staff. None of the
           officials were able to state why greater emphasis had not been given
           to the agency’s nitrosamines testing program. The Director of
           Regulation Development and Analysis stated that the plan is to include
           nitrosamines testing as a part of HACCP and have the testing
           performed by the establishments. FSIS officials stated that the
           agency plans to publish a proposed rule covering this by March 31,
           2001.

           Unless all bacon-processing establishments under FSIS inspection
           are subject to nitrosamines testing, FSIS has limited assurance that
           bacon products marketed to consumers do not contain unsafe levels
           of this carcinogenic substance. Based on the results of the limited
           testing performed during the period of 1997 through 1999, we believe
           that FSIS needs to implement a better testing program.

                                  Ensure that all establishments producing
  RECOMMENDATION NO. 6            bacon products are subject to required
                                  testing for nitrosamines. Implement a
                                  comprehensive program of testing for this
       substance, under which all bacon-producing establishments would
       have product subject to periodic testing over a predetermined period
       of time.

           FSIS Response

           By March 3, 2001, FSIS intends to publish a rule to convert
           nitrosamine requirements provided by 9 CFR 318.7(b) to performance
           standards under the establishments’ HACCP procedures.          The
           performance standard is expected to address the nitrosamine levels

USDA/OIG-A/24601-0001-Ch                                       Section II, Page 23
             as well as the potential growth of Clostridium botulinum.      The
             proposed rule will require the establishments to control their
             production to produce safe products. FSIS will be expected to verify
             that the establishments are following the HACCP procedures, which
             may include product testing to verify nitrosamine levels.

             OIG Position

             We accept FSIS’ management decision.




Section II, Page 24                                 USDA/OIG-A/24601-0001-Ch
 CHAPTER 2        QUALITY ASSURANCE ACTIVITIES NEED TO BE
                  STRENGTHENED


           To ensure that the FSIS laboratories are meeting all applicable quality
           control standards as set forth by regulations, the Microbiology
           Division and the Chemistry and Toxicology Division have each
           established a Quality Assurance Branch to perform various monitoring
           tasks.     The Microbiology Division’s QAB is responsible for all
           laboratory operations which involve pathogen testing and species
           identification, while the Chemistry and Toxicology Division’s QAB
           administers testing programs for residues and food chemistry. Each
           QAB is responsible for making periodic onsite field visits to the
           laboratories, as well as sending check samples to the laboratories.
           The results of the laboratory analyses of these check samples are
           evaluated against pre-specified criteria by the QAB’s, and are used
           as a means of verifying the proficiency of the laboratories in
           performing analyses of official product samples from meat and poultry
           establishments.

           We found, however, that because of the way the check sampling
           programs had been implemented by both divisions, their results were
           not necessarily representative of the actual performance of the
           laboratories in the day-to-day testing of official product samples.
           Since the check sample sets were clearly marked to distinguish them
           from official samples, the laboratories were aware that they were
           being tested. We performed our own check sampling procedure,
           sending 60 unmarked (“blind”) check samples to each laboratory for
           Salmonella and E.coli testing. In each instance, the FSIS field
           laboratories correctly identified the presence of the pathogens in our
           check samples.

           Our audit noted, however, that the Microbiology QAB had not
           implemented adequate controls to ensure that all field visits were
           performed on the required schedule, or that the results of onsite visits
           and check samples were always communicated to the laboratories.
           The microbiology QAB did not ensure that laboratories responded to
           review reports as required. Without such controls, laboratories may
           remain unaware of deficiencies disclosed through the various QAB
           reviews. In addition, FSIS has no assurance that needed corrective
           actions have been taken by the laboratories to correct reported
           deficiencies. Further, the Microbiology Division had not implemented
           a formal training program for its analysts at the laboratories, or

USDA/OIG-A/24601-0001-Ch                                       Section II, Page 25
             required that any training provided to these analysts was documented
             as required under both ISO standards and the draft FSIS
             requirements sent to the field laboratories. Such a program needs to
             be implemented before it can obtain ISO accreditation.

             The Microbiology QAB also performs quality control assessments on
             the screening test kits that the laboratories use in order to perform
             the large number of Salmonella tests required under HAACP.
             However, FSIS procured over 55,000 test kits from one vendor even
             though QAB notified FSIS Headquarters that the test kits recorded
             “false negative” test results in almost 7 percent of the tests
             performed; this was more than twice the allowable rate of 3 percent
             under both the procurement contract and FSIS’ Microbiology
             Laboratory Guidelines. Based on the potential health risks to the
             public which excessive false negative test results could cause, we
             issued a management alert and FSIS is taking corrective actions.

             Finally, neither OPHS nor the QAB’s had implemented a quality
             assurance program for the Special Project and Outbreak Support
             Laboratory, whose functions include conducting investigations into
             outbreaks of foodborne illness.          Overall, we believe that
             improvements in these various quality assurance functions would
             greatly enhance the assurances available to FSIS management that
             the laboratories are performing accurate and supportable analyses.


                                      FSIS did not have adequate controls in
       FINDING NO. 5                  place to ensure that deviations identified
                                      at the field laboratories through
 BETTER FOLLOWUP IS NEEDED            proficiency check samples were timely
WHEN DEVIATIONS ARE FOUND IN reported to FSIS Headquarters and the
 LABORATORY CHECK SAMPLE              laboratories. In addition, FSIS did not
           RESULTS                    perform the necessary monitoring to
                                      ensure that the laboratories adequately
          addressed the problems or deviations noted. We attributed this in
          part, to the FSIS Microbiology Division and its Quality Assurance
          Branch, which did not adequately coordinate with one another to
          ensure that reports were timely issued and resolved. Consequently,
          the field laboratories are not always made aware of deficiencies or
          deviations disclosed through the proficiency testing process, and
          FSIS has reduced assurance that such deficiencies or deviations have
          been corrected.

             FSIS uses proficiency testing to monitor the quality and accuracy of
             analytical results from its laboratories. On a quarterly or semiannual

Section II, Page 26                                  USDA/OIG-A/24601-0001-Ch
           basis, each FSIS field laboratory receives a series of proficiency
           check samples for analysis. The check samples for microbiology are
           prepared under contract by a private laboratory, and are inoculated
           with specified quantities of pathogens such as Salmonella or E.coli
           0157:H7, or with antibiotic residues. The field laboratories are notified
           in advance of their arrival, and the check samples are clearly marked
           as such on the shipping containers. The receiving laboratory then
           tests each check sample for both the presence of the specified
           pathogen or antibiotics, and its quantity in the sample, as well as for
           species identification.

           Once the check samples have been analyzed by the field laboratory,
           the results are reported to the QAB. The QAB then evaluates the
           laboratory’s performance by comparing its test results to the
           inoculation records for each sample provided by the contracted
           laboratory, as well as to the results obtained by the other field
           laboratories. In any instance where the field laboratory fails to detect
           the presence of the inoculant in a sample, records a quantitative
           analysis that falls outside of set parameters, or incorrectly identifies
           the species of a sample, a finding must be reported so that the
           laboratory can identify and correct any laboratory-related problems
           which may have caused the deviation.

           The QAB forwards the graded results to the Microbiology Division in
           FSIS Headquarters, which has microbiology oversight responsibilities
           for the field laboratories. Once the Microbiology Division has
           reviewed the results, it informs the laboratory of its performance on
           the check sample analyses. In cases where deviations are noted, the
           Division also informs the laboratory of these and, when necessary,
           requests a written response detailing the corrective actions taken to
           correct the problems. It is the responsibility of the Microbiology
           Division to determine whether or not the corrective actions reported
           by the laboratory are sufficient to correct the noted problems.

           Our review disclosed that this process was not always followed.
           Between October 1997, and June 1999, the three field laboratories
           analyzed a total of 108 proficiency check sample sets involving a total
           of 1,968 analyses performed on 921 individual samples (each set
           consists of multiple individual check samples and if one sample is in
           error or falls outside of set parameters, QAB policy is to report a
           finding); however, the QAB forwarded the results for only 61 of these
           sets to the Microbiology Division. The results for the remaining
           47 sets were not reviewed by FSIS Headquarters nor sent to the
           laboratories. Of the 47 sets of results that were not forwarded by
           QAB, 16 identified some type of errors or deviations in the

USDA/OIG-A/24601-0001-Ch                                       Section II, Page 27
             laboratories’ analyses of the check samples that required followup. In
             most cases, only one of the samples in the set caused the finding.
             Because neither of the Microbiology Division nor the laboratories had
             received these reports, the deficiencies had remained unreported for
             periods of between 3 and 11 months at the time of our audit. QAB
             officials stated that they were not aware that the reports had not
             been provided to the Microbiology Division, and agreed with the need
             for better controls within QAB to ensure that the reports are timely
             forwarded.

             Of the 61 sets that were forwarded to the Microbiology Division and
             the laboratories, 20 disclosed some type of deviation which required
             followup with the laboratories. The Microbiology Division requested
             the laboratories to provide written responses in 16 of the 20 cases,
             but the laboratories only provided responses in 3 cases. FSIS did not
             follow up with the laboratories to obtain responses in the remaining 13
             instances.     Through interviews with FSIS Microbiology Division
             officials, we found that no one in the Division had been assigned the
             responsibility for monitoring the laboratories to ensure that they
             provided the required responses.

             FSIS Headquarters officials stated that they had not been aware of
             these problems, and the responsible official agreed that the
             procedures needed to be strengthened to prevent their recurrence.
             One official stated that this problem had occurred because the QAB
             was not involved in all areas of the check sample process, and noted
             that the division of responsibilities between the Microbiology Division
             and the QAB may have been responsible for lack of follow through in
             obtaining laboratory responses to requests for corrective action. An
             FSIS official stated that she planned to amend the check sample
             reporting process so that QAB will have full responsibility for ensuring
             that test results are communicated to the laboratories, and that
             laboratories provide appropriate responses to the check sample
             results.

             FSIS officials also pointed out that the 36 sample sets on which QAB
             noted deviations represented only 66 analyses out of
             1,968 performed (3.4 percent). Of these, they stated that only 14 of
             the analyses actually involved laboratory errors.


                                         Establish monitoring procedures to
  RECOMMENDATION NO. 7                   ensure that the results of proficiency
                                         check samples are reported to the
                                         laboratories in a timely manner, and that

Section II, Page 28                                   USDA/OIG-A/24601-0001-Ch
                    laboratories are required to provide written responses to ensure that
                    appropriate corrective action, such as training or increased
                    supervision, is taken.

                    FSIS Response

                    FSIS agreed that it can improve internal followup when deviations in
                    check sample results are noted.        The response stated that
                    procedures can be developed to assist in the review, evaluation, and
                    reporting of check sample results, and that additional mechanisms
                    could be developed to ensure that any necessary corrective actions
                    are implemented, recorded, and properly reported to the appropriate
                    officials. FSIS officials stated that they have drafted standard
                    operating procedures that strengthen these controls. The new
                    procedures should be completed by September 2000.

                    OIG Position

                    We accept FSIS’ management decision.


                                         The FSIS Microbiology Division, for a
          FINDING NO. 6                  period of approximately 4 years (May
                                         1995 – March 1999), did not conduct the
      QAB FIELD VISITS DID NOT           onsite field reviews required by FSIS
    COMPLY WITH REQUIREMENTS             procedures. These reviews are needed
                                         to assure FSIS management that the field
             laboratories operate as intended. When onsite visits were performed
             in 1995 and 1999, the results of the reviews either were not reported
             to the laboratories or were not reported until 8 to 14 months after the
             reviews were completed. Further, we found that for 5 of 6 reports
             that were issued, the laboratories did not provide the required
             responses detailing their corrective actions on the deficiencies noted.
               As a result, FSIS Headquarters lacked assurance that problems
             disclosed in reviews had been corrected.

                    The International Organization for Standardization (ISO) 4 requires
                    that laboratories shall arrange for review of their activities at
                    appropriate intervals to verify that their operations continue to comply
                    with the requirements of the quality system governing their
                    operations. Such reviews shall be carried out by trained and qualified
                    staff that are, wherever possible, independent of the activity to be

4
    International Organization for Standardization, Ref. No. ISO/IEC GUIDE 25: 1990 (E).



USDA/OIG-A/24601-0001-Ch                                                                   Section II, Page 29
                 audited. Where the review finding casts doubt on the correctness or
                 validity of the laboratory’s calibration or test results, the laboratory
                 shall take immediate corrective action and shall immediately notify, in
                 writing, any client whose work may have been affected. In addition,
                 the guidelines state that it is not enough to merely discover problems;
                 they must also be corrected. All audits and review findings and any
                 corrective action that arise from them shall be documented.

                 FSIS has not implemented laboratory review procedures other than to
                 prepare draft instructions dated June 4, 1993. The draft of these
                 procedures 5 requires onsite reviews to be conducted at least twice a
                 year at each field laboratory. The draft states that the reviews will
                 cover all critical procedures and functions that are part of the daily
                 routine of the microbiology laboratory. Also, a field review report
                 summarizing the findings will be prepared and sent to the field
                 laboratory. The report will require a laboratory response to show
                 corrective actions on the reported deficiencies. QAB assumed
                 responsibility for meeting these requirements when it was created in
                 September 1996; prior to this, the FSIS Microbiology Division had
                 direct responsibility.

                 FREQUENCY

                 Our review of the Microbiology Division’s and QAB’s onsite reviews
                 disclosed that the frequency of reviews and the reporting process did
                 not provide assurances to FSIS that the laboratories were providing
                 reliable test results that can be supported by a documented quality
                 control system. The following table summarizes the onsite reviews
                 conducted and the subsequent reporting process.




                 Table 1: Listing of Microbiology QAB Onsite Reviews
                                                                                          DATE
                                                                                      LABORATORY
                                             DATE OF           DATE REPORT           RESPONDED TO
                   LABORATORY                REVIEW            WAS ISSUED               REPORT
                      Eastern               March 1995           Not Issued           Not Applicable


5
  FSIS Quality Assurance Program Microbiology Division Science and Technology Program Guidelines, (Draft)
September 1992.



Section II, Page 30                                                USDA/OIG-A/24601-0001-Ch
               Midwest          March 1995       May 16, 1996        June 26, 1996
               Western        May-June 1995       Not Dated          No Response
               Midwest         August 1997       Sept. 3, 1997       No Response
               Western        September 1997    March 2, 1998        No Response
               Eastern           April 1999       Not Issued         Not Applicable
               Midwest          March1999       November 1999        No Response
               Western          March 1999      November 1999        No Response

           As shown in the preceding table, onsite reviews of laboratory
           operations were not made at regular intervals or at the semiannual
           cycle required by FSIS procedures. The 1997 reviews were limited
           to the Midwest laboratory’s antibiotic residue testing program and to
           the Western Laboratory’s egg testing activities, and thus did not meet
           the criteria for full onsite reviews. Therefore, comprehensive reviews
           of the laboratories’ operations were performed only in 1995 and
           1999, with almost a 4-year interval between them.

           REPORTING

           In addition, for the reviews performed, FSIS did not always issue
           reports or issue them on a timely basis. For the 1995 reviews, the
           Microbiology Division did not issue a report to the Eastern
           Laboratory, and issued its report to the Midwest Laboratory
           14 months after the review was conducted. For the Western
           Laboratory’s 1995 review, the Microbiology Division did not document
           the date on which the report was issued. QAB issued reports on two
           of the 1999 reviews over 7 months after the reviews were completed,
           and has not yet issued a report on the third review completed in April
           1999.

           FSIS officials pointed out that even though reports may not have
           always been issued, or timely issued, the laboratory personnel would
           still have been aware of any problems found in the field visits because
           QAB personnel always held exit conferences with laboratory
           personnel at the conclusion of each review. However, we found that
           documentation of an exit conference existed for only one of the seven
           reviews, and in this case the documentation did not state what was
           discussed. In addition, personnel at the Midwest Field Laboratory
           stated that no exit conference was held at the conclusion of the
           March 1999 review. Without proper documentation, there is no
           guarantee that laboratory personnel were made aware of any
           significant problems found during the review.

           RESPONSE



USDA/OIG-A/24601-0001-Ch                                         Section II, Page 31
             We also found that FSIS had not implemented controls to ensure that
             the laboratories responded with their proposed corrective actions
             taken or planned to resolve reported deficiencies.     Of the eight
             reviews conducted between 1995 and 1999, no reports were issued
             on two. For the remaining six reviews, only the two 1997 reports
             were issued within 6 months. The other reviews were issued 8 to 14
             months after the reviews were completed, during which time the
             laboratories had no opportunity to correct the problems noted. The
             laboratories provided a response to only one of the six issued
             reports, and no follow up was made with the laboratories to obtain
             responses. Thus, FSIS has no assurance that the laboratories ever
             took the necessary corrective actions.

             The Director of the QAB agreed that FSIS had not implemented
             controls to track the status of the reviews and ensure that reports are
             issued in a timely manner, or that the laboratories provide the
             required written responses. This was due, in part, to the fact that the
             memos transmitting the reports to the laboratories did not request
             them to respond to the reports’ recommendations. The 1993 draft
             procedures also did not provide timeframes for the review staff to
             issue the reports, or for the laboratories to provide responses.

             We concluded that the lack of field visits and of controls over the
             reporting process reduced the assurance that problems or
             deficiencies with field laboratory operations were being identified and
             corrected. Further, QAB’s lack of procedures to ensure that the
             reports of onsite visits are provided to the laboratories, or to routinely
             document exit discussions, could result in laboratories being unaware
             of all deficiencies disclosed by the reviews. Such problems could,
             therefore, remain uncorrected indefinitely.

                                   Develop and implement procedures that
  RECOMMENDATION NO. 8             schedule onsite laboratory reviews at
                                   regular intervals, establish guidelines for
                                   issuing     reports     within    specified
       timeframes, and require the laboratories to respond to the reports’
       recommendations. In addition, implement procedures for QAB to
       track the status of both draft and issued reports to ensure that they
       are processed and responded to in a timely manner.

             FSIS Response

             FSIS officials agreed with the recommendation and are in the process
             of instituting improvements to the management of reviews of the FSIS
             laboratories to include the areas of scheduling, auditing, reporting,

Section II, Page 32                                    USDA/OIG-A/24601-0001-Ch
            tracking, and followup on corrective actions. QAB scientists have
            been assigned specific tracking and followup responsibilities.
            Furthermore, to aid in program efficiency and management, QAB is
            developing standard operating procedures to help assure that
            reviews, responses, and corrective actions all occur in a timely,
            efficient, and acceptable manner. Each SOP will have a related
            flowchart to assist staff in meeting and following requirements. The
            following SOP’s are under development and are expected to be
            completed by October 2000: (1) Preparation, submission, and
            Tracking of Field Service Laboratory Audit Reports; and (2)
            Scheduling and Conducting of Field service and Other Agency
            Laboratory Audits.

            OIG Position

            We accept FSIS’ management decision.

                                      FSIS purchased Salmonella screening
       FINDING NO. 7                  test kits that did not comply with contract
                                      specifications, even though the QAB
   SALMONELLA SCREENING               reported the deficiencies to the
   TEST KITS DID NOT MEET             responsible officials prior to their
       SPECIFICATIONS                 procurement. According to FSIS officials,
                                      these      purchases     were    necessary
          because the inventories of screening test kits at the laboratories
          would not have lasted the 2 to 3-month period that it would have
          taken the supplier to prepare a new batch of the kits for retesting.

            FSIS entered into a contract on February 16, 1999, to purchase
            screening test kits for Salmonella. The screening test kits allow the
            laboratories to identify the potential presence of Salmonella in a
            sample more quickly than using traditional culture and biochemical
            methods.

            To ensure that the test kits meet the contract specifications, FSIS
            requires that each production lot be tested for sensitivity, specificity,
            false positive and negative rates, and efficiency. QAB performed
            quality control tests on the initial production lot, and the kits produced
            false positive readings at more than twice the 10 percent rate allowed
            by the contract. Although the high false positive rate could force the
            laboratories to perform many unnecessary culture and biochemical
            tests to confirm the presence of Salmonella in any official samples
            for which the test kits might produce inaccurate readings, FSIS went
            ahead with the procurement even after being notified of these results.
              Quality control tests also found problems in a subsequent production

USDA/OIG-A/24601-0001-Ch                                         Section II, Page 33
             lot. In addition, QAB tests on the second production lot supplied by
             the vendor disclosed that the test kits would produce false negative
             results (thus failing to identify Salmonella in a sample where it was
             actually present) at a rate of 6.9 percent, more than twice the
             3 percent allowed by the contract or the MLG. In all, FSIS purchased
             approximately 55,000 test kits from these two production lots.

             Although the specifications of FSIS’ contract with the vendor
             conformed to the requirements of the MLG with regard to the rate at
             which the test kits could produce false negative results, we noted that
             the contract allowed for a false positive rate of up to 10 percent while
             the MLG specified a rate of no more than 4 percent. FSIS officials
             stated that a higher false positive rate does not endanger the public
             health as would an excessive false positive rate, and they believed
             that the false positive rate allowed by the contract maintained the
             laboratories workload at a reasonable level.            Nevertheless, a
             reduction of this workload through more efficient test kits, which
             would eliminate the need to attempt confirmation of false positive test
             readings, would result in a more economical and efficient use of the
             laboratory analysts’ time. Therefore, if the MLG’s specified false
             positive rate of 4 percent is achievable, we believe that contract
             terms should be amended to reflect this. If FSIS determines that the
             rate given in the MLG is too low, then the MLG should be amended to
             reflect reasonable figures that can be used as the basis for future
             contracts.

             Because of the high rate of false negative results produced by QAB’s
             tests, and the possibility that this could cause Salmonella to go
             undetected in official samples screened using these test kits, we
             issued a management alert to FSIS on October 29, 1999. In the
             management alert, we recommended that FSIS: (1) Require the
             vendor to begin immediate preparation of a new production lot to
             replace the existing screening test kits from the two existing
             production lots, which could then be withdrawn from use at the field
             laboratories; (2) amend FSIS’ contract specifications for the purchase
             of these test kits to comply with MLG and AOAC standards; and (3)
             establish an inventory reorder point to ensure that orders for new test
             kits are placed early enough to allow FSIS sufficient time to verify that
             production lots meet requirements before the laboratories exhaust
             their existing stocks.

                                          Require the vendor to begin immediate
  RECOMMENDATION NO. 9                    preparation of a new production lot of
                                          Salmonella test kits, which meet the
                                          MLG and AOAC standards, so that the

Section II, Page 34                                    USDA/OIG-A/24601-0001-Ch
           use of the test kits from the two existing lots can be discontinued at
           the earliest possible time.

           FSIS Response

           FSIS agreed with this recommendation. On November 19, 1999, the
           agency stated that the vendor had agreed to begin immediate
           preparation of a new production lot of Salmonella test kits which
           meet the MLG and AOAC standards so that the use of test kits from
           the two existing lots could be discontinued at the earliest possible
           time. In the response to the official draft, FSIS officials stated that
           they had obtained new test kits.

           OIG Position

           We accept FSIS’ management decision.

                                        Amend FSIS contract specifications for
 RECOMMENDATION NO. 10                  Salmonella test kits to comply with the
                                        Microbiology Laboratory Guide.


           FSIS Response

           FSIS stated that experience and empirical evidence in using
           commercially available test kits supports the conclusion that the
           contact specifications should not be adjusted. They also stated that
           more stringent specifications could preclude the finding of an
           acceptable rapid screening test. However, the officials stated that
           the agency is exploring options for changing the MLG performance
           characteristics.

           OIG Position

           If FSIS officials believe that the current MLG specification for false
           positive readings is too stringent, and the specifications of the existing
           contract are more reasonable, then the MLG should be amended. To
           reach a management decision, FSIS needs to provide us with a time-
           phased plan for bringing the contract and MLG specifications into
           agreement.


                                        Establish an inventory reorder point to
 RECOMMENDATION NO. 11                  ensure that orders for new test kits are
                                        placed early enough to allow sufficient

USDA/OIG-A/24601-0001-Ch                                        Section II, Page 35
             time for FSIS to verify that production lots meet requirements, or if
             necessary to obtain new test kits before the laboratories exhaust their
             existing stocks.

             FSIS Response

             FSIS agreed with this recommendation and has established an
             inventory point to ensure that orders for new kits are placed early
             enough to allow sufficient time to verify that they meet requirements
             and before laboratories exhaust the existing supplies.

             OIG Position

             We accept FSIS’ management decision.

                                        FSIS needs to ensure that the three field
         FINDING NO. 8                  laboratories are providing adequate
                                        training to microbiology analysts and
     FSIS NEEDS TO IMPROVE              ensure that all training provided is
    TRAINING PROGRAMS FOR               adequately documented. Although the
    MICROBIOLOGY ANALYSTS               agency had drafted training procedures in
                                        August     1998     to    implement    the
            requirements of the ISO, these have remained in draft form. Further,
            because FSIS relied on the individual laboratories to implement the
            prescribed training programs, we found that ongoing training for the
            analysts was limited to informal on-the-job training. The laboratories
            did not document the training provided to the analysts as required, or
            management’s assessment of the analysts’ competence to perform
            various laboratory tests.

             The Association of Analytical Chemist (AOAC) guidelines for the
             accreditation of laboratories under the International Organization for
             Standardization/International Electrotechnical Commission (ISO/IEC)
             Guide 25, provides the following guidelines for laboratory training
             programs:



             •   All staff must be adequately trained;

             •   Objective measurements should be used to assess competence at
                 the completion of training, i.e. the use of proficiency samples;




Section II, Page 36                                      USDA/OIG-A/24601-0001-Ch
           •   Staff must only perform tests and supporting activities if they are
               recognized as competent to do so, or if they do so under
               appropriate supervision;

           •   The    continued   competence      of  the    staff  must     be
               monitored/appraised using appropriate means (such as proficiency
               samples); and

           •   The laboratory shall maintain records on the relevant
               qualifications, training, skills and experience of the technical staff.

           In August 1998, FSIS prepared a set of draft of procedures titled
           “Personnel Training and Evaluation”. This draft addressed the training
           guidelines provided by AOAC’s ISO/IEC Guide 25. We reviewed
           these procedures and determined that, if properly implemented, they
           would adequately address the ISO requirements. Although FSIS’
           field laboratories are not currently accredited, the agency has stated
           its commitment to obtaining such accreditation at the earliest possible
           time.

           The draft FSIS procedures further specify that one of the types of
           training that microbiology analysts should receive is “Professional
           Development Training.” Section 6.2 of the procedures define this
           type of training as including:

           •   On-the-job training;
           •   in-house seminars;
           •   programmed learning courses;
           •   short courses such as those sponsored by AOAC, the American
               Chemical Society, and other scientific organizations;
           •   specialized training by instrument manufacturers;
           •   attendance at workshops and scientific meetings;
           •   university and college courses;
           •   specialized training workshops, seminars, and manuals sponsored
               by Federal regulatory agencies such as EPA and FDA; and
           •   proficiency programs.

           Our reviews at the three field laboratories disclosed that analysts
           performing residue and food chemistry analyses had training plans on
           file, and that their training was documented on an annual basis.
           However, the microbiology sections at the three laboratories did not
           maintain documentation of training provided, or of any testing of their
           staffs’ competence to perform tests and related activities. Field
           laboratory officials stated that their training programs consisted of
           informal on-the-job training that is not documented.

USDA/OIG-A/24601-0001-Ch                                         Section II, Page 37
             The need for a formal training program was recognized by the
             Microbiology Division’s QAB in its 1997 review of the Midwest
             Laboratory’s Antibiotic Residue Section and in its 1999 reviews at the
             three field laboratories to identify changes needed for accreditation
             under ISO/IEC Guide – 25 standards. At the Midwest Laboratory the
             QAB review determined that the laboratory did not document the
             training of either new or experienced staff members. The Midwest
             Laboratory did not provide a written response to the QAB’s report
             because one was not requested. (See Finding No. 7.) The QAB’s
             1999 reviews of the accreditation issues at the field laboratories also
             concluded that the three laboratories needed a formal and
             documented training program.

             The Director of FSIS’ Microbiology Division, as well as officials at the
             field laboratories, stated that no documentation was available to show
             that the three field laboratories identified training needs for analysts,
             assessed the competence of staff members to perform tests,
             recorded the training of staff member, or recorded FSIS’ recognition
             of its technical staff’s qualifications to perform product testing. In
             addition, there was no indication that any Professional Development
             Training had been provided except for on-the-job training.
             Headquarters officials stated that they relied on the field laboratories
             to provide the training and to document the training provided to the
             staff.

                                    Establish a training program that will,
  RECOMMENDATION NO. 12             (1) identify   required     training   for
                                    microbiology staff members, (2) provide
                                    formal, structured training in addition to
        informal on-the-job training, (3) document the training provided to
        each staff member, (4) assess and document the competence of
        each staff member to perform tests and supporting activities, and
        (5) monitor the continued competence of each staff member to
        perform laboratory tests.


             FSIS Response

             FSIS officials agreed that further enhancement and documentation of
             the laboratory training programs for microbiologists are indicated.
             FSIS has drafted standard operating procedures and work
             instructions that address the items in the report’s narrative as well as
             the recommendation. FSIS is also developing more extensive
             checklists for on-the-job training and is implementing a periodic testing

Section II, Page 38                                    USDA/OIG-A/24601-0001-Ch
                   program for individual analysts to further demonstrate initial and
                   continued competency.

                   FSIS officials took issue with the report’s implications that FSIS does
                   not provide adequate training, both in-house, and for professional
                   development.       They stated that FSIS has always devoted
                   considerable time and effort into training analysts and consistently
                   provide proper supervisory oversight to ensure continued
                   competency.       Although FSIS did not have readily detailed
                   documentation of the specific training provided to each analyst at the
                   time of the audit, more detailed, employee-specific training records
                   were provided in March 2000.

                   OIG Position

                   AS noted in the finding, at the time of the audit the responsible
                   officials at each of the three field laboratories stated that their training
                   programs consisted of informal, on-the-job training that was not
                   documented. We reviewed the additional information sent in March
                   2000, which FSIS referenced in its response; although it did show
                   documentation that certain individuals attended a documented
                   training, it does not show that laboratory analysts overall were being
                   provided with sufficient training other than that given on the job.

                   However, we agreed with the corrective actions being taken by FSIS.
                   To reach management decision, FSIS needs to advise us when the
                   standard operating procedures, the new checklists, and the testing
                   programs will become effective.


                                      FSIS does not have a quality assurance
       FINDING NO. 9                  program in place to monitor the Special
                                      Project    and      Outbreak      Support
   NO QUALITY ASSURANCE               Laboratory’s     (SPOSL)      operations.
     PROGRAM HAS BEEN                 Neither FSIS Headquarters nor the
IMPLEMENTED FOR THE SPECIAL           Quality Assurance Branch (QAB) has
   PROJECT AND OUTBREAK               ever developed procedures in place to
        LABORATORY                    perform onsite reviews at this laboratory.
                                       FSIS officials agreed that it would be
          appropriate to conduct onsite reviews at SPOSL.

                   The International Organization for Standardization (ISO)6 states that a
                   laboratory shall arrange for audits of its activities at appropriate

6
    ISO/IEC Guide 25: 1990, Section 5.3.

USDA/OIG-A/24601-0001-Ch                                                  Section II, Page 39
             intervals to verify that its operations continue to comply with the
             requirements of the quality system.

             SPOSL is part of FSIS’ Office of Public Health and Science (OPHS).
             OPHS provides scientific focus, leadership, and expertise in
             addressing public health risks related to meat, poultry, and egg
             products. SPOSL works with a variety of foodborne pathogens of
             interest to FSIS in such areas as problem-solving, support of the
             FSIS Field Service Laboratories, and method adaptation and
             validation. Their primary function is to assist the various divisions in
             OPHS by providing laboratory support during case or outbreak
             investigations by the agency or by any State requesting assistance.
             Scientists in SPOSL are responsible for method validation and
             adaptation for use in the field service laboratories and other FSIS
             programs. These scientists also act as subject area experts for
             revising the Microbiology Laboratory Guidebook.

             The Headquarters Microbiology Division staff officer stated that onsite
             reviews of SPOSL are not being done because of the lack of
             available staff, time, and a system in place to do so. The Quality
             Assurance Branch Chief stated that it would be good for the agency
             to perform onsite reviews of SPOSL.

             Due to the important role that SPOSL plays in OPHS, we believe that
             they should be subject to the same regular onsite reviews as the field
             service laboratories.      This would provide FSIS managers with
             assurances as to whether SPOSL’s operations are acceptable or
             identify deficiencies that need to be addressed.


                                         Develop and implement a quality
  RECOMMENDATION NO. 13                  assurance program for the Special
                                         Project    and  Outbreak  Support
                                         Laboratory.

             FSIS Response

             FSIS agreed with this recommendation and has instituted a
             proficiency check sample program for the Special Project and
             Outbreak Support Laboratory (SPOSL). In addition, FSIS has
             scheduled SPOSL for a laboratory review by the last quarter of
             FY 2000.

             OIG Position



Section II, Page 40                                   USDA/OIG-A/24601-0001-Ch
           We accept FSIS’ management decision.




USDA/OIG-A/24601-0001-Ch                          Section II, Page 41
Section II, Page 42   USDA/OIG-A/24601-0001-Ch
                  BETTER CONTROLS OVER LABORATORY
 CHAPTER 3        DOCUMENTATION AND SUPERVISORY REVIEWS
                  ARE NEEDED


           In our onsite reviews at the three field laboratories, we concluded that
           overall they conducted their operations according to applicable FSIS
           standards. In addition, during 1999 FSIS began an initiative to have
           the field laboratories accredited by the Association of Analytical
           Chemists, and performed QAB reviews at each laboratory to assess
           their present degree of compliance with these standards.

           We found that laboratory personnel were following the guidelines
           approved by FSIS Headquarters, and in conjunction with outside
           technical consultants we determined that these guidelines would result
           in accurate analyses of official samples. Based on our observations,
           laboratory analysts were given adequate supervision, and based on
           our series of 60 blind” check samples sent to each field laboratory we
           determined that they were able to correctly identify the presence of
           Salmonella and E.coli bacteria.

           However, laboratory management needed to improve the
           laboratories’ documentation of their operations. Both FSIS and ISO
           standards require that for each sample analysis performed, detailed
           records be maintained of the procedures that were followed.
           However, only one of the three field laboratories was consistently
           requiring the necessary documentation to meet the standards. At the
           other two laboratories, 81 of the 124 analyses we reviewed were
           inadequately documented. In addition, none of the field laboratories
           were maintaining the required degree of documentation to
           demonstrate that the equipment used to perform analyses had been
           properly maintained, serviced, or calibrated at the required frequency.


                                       Two of the three FSIS field service
       FINDING NO. 10                  laboratories did not adequately document
                                       their sample analyses. This occurred
  BETTER DOCUMENTATION OF              because analysts did not always detail
TESTING PROCEDURES IS NEEDED           the work performed during testing
                                       procedures, and were not required to
                                       correct this by their supervisors in spite of
                                       documented supervisory reviews.            In



USDA/OIG-A/24601-0001-Ch                                       Section II, Page 43
                    addition, the quality control checklists used by two of the laboratories
                    did not list all of the items required to be documented, while the third
                    laboratory did not use a checklist at all.

                    The USDA/FSIS Microbiology Laboratory Guidebook (MLG),
                    3rd Edition/1998 requires that adequate documentation and
                    recordkeeping be employed for all analytical results, test controls,
                    quality assurance, and quality control procedures.7 It also states that
                    a rigorous quality assurance program must be in place to ensure that
                    there is documentation readily available to facilitate: traceability of
                    analytical results to the analyst performing the work, the methods and
                    equipment used; and the status of the equipment at the time it was
                    used. 8 In addition, the Association of Official Analytical Chemists
                    (AOAC) International’s Accreditation Criteria for Laboratories
                    Performing Food Microbiological Testing states that the laboratory
                    “shall retain on record all original observations, calculations, and
                    derived data…”9

                    We reviewed the quality control worksheets used at the Eastern and
                    Midwestern laboratories and found that, with some improvements,
                    they would include all critical areas of analyses if documented and
                    verified by a supervisor. FSIS should ensure that such worksheets
                    continue to be used by the Eastern and Midwestern Field
                    Laboratories, and are implemented by the Western Field Laboratory.
                    The quality control worksheets, with some additions, would satisfy all
                    the requirements of the MLG and the ISO. The worksheets are used
                    by the analysts to document, at every critical stage in each analysis,
                    the following:

                    •          batch number of the media used;
                    •          date and time that samples were put in and taken out of
                               incubators;
                    •          temperature of the incubators;
                    •          initials of the analyst performing each step; and
                    •          results of observations of negative and positive controls used.

                    The batch number of the media, in which microbiological cultures are
                    grown, is a critical item of documentation because it is used to trace
                    back to the procedure and methods used to prepare the media. The
                    information about the incubators used, including the identifying number
                    of the incubator used along with dates and times that samples went in
7
    General Considerations section, page iii.
8
    Volume 2, Section 36.91.
9
    Section 12.1.



Section II, Page 44                                             USDA/OIG-A/24601-0001-Ch
           and out, and the temperature at the time, is critical in any analysis.
           Also, the result of the observations of the negative and positive
           controls used is important to support that the sample results are
           accurate.

           The following items should be added to the quality control
           worksheets:

               •   batch number or serial number of the controls used;
               •   documentation of identifying numbers of the major equipment
                   used in analyses, such as the DIAS machine used, if the
                   laboratory has more than one, and the VITEK machine and
                   carousel used.

           A supervisory review should include verification that all information
           regarding the analysis has been documented, and that the
           documentation supports the work performed.

           As part of our audit at the field laboratories, we evaluated the testing
           procedures used by the laboratories and the timeliness of the testing
           process. We also evaluated the controls in place at the laboratories
           to ensure that testing was properly performed. We concluded, in
           conjunction with our technical consultants, that the laboratories were
           using proper procedures in performing their various testing programs;
           that adequate supervision was being provided to largely preclude the
           entry of false test results and that analyses were generally being
           performed on a timely basis; this included tests of raw product under
           HACCP, which must be initiated the day after the sample is collected,
           and tests of processed product which should be completed within 10
           days.

           We reviewed the three FSIS field laboratories’ supporting
           documentation for 190 official samples sent to the laboratories for
           analysis, of which 123 were microbiology/food chemistry analyses
           and 67 were residue analyses. The microbiology tests we reviewed
           included analyses for Salmonella, E.coli 0157:H7, Listeria, and
           campylobacter, as well as canned food tests, extraneous material
           tests, and species tests. The residue tests included analyses for both
           chemical and antibiotic residues.

           We determined that documentation for 81 of the 124 analyses we
           reviewed at 2 of the 3 laboratories was not complete. Our results
           were as follows:




USDA/OIG-A/24601-0001-Ch                                       Section II, Page 45
             •   At the Western Laboratory, the documentation for all 56 of the
                 analyses we reviewed did not clearly record incubation times and
                 temperatures, sample preparation for analysis, quality control
                 samples used, and/or critical control points such as temperatures
                 and weights.

             •   At the Midwestern Laboratory, 2 of the 68 analyses we reviewed
                 were not documented at all, while 11 others contained no
                 documentation of one or more critical control points such as
                 temperatures or weights. In another 12 instances, the required
                 incubation log had either not been prepared or was incomplete.
                 Overall, we found that 25 of the 68 analyses were not adequately
                 documented.

             Although we found that the sample result forms were consistently
             initialed by supervisory personnel, when required, to show that the
             work of the analysts had been reviewed, they did not ensure that the
             documentation was complete. Two of the laboratories (Eastern and
             Midwestern) used checklists that required documentation for the
             majority of the items needed to fulfill the MLG requirements and those
             which would, in the future, be required under ISO. However, they did
             not include certain items such as batch number or serial numbers of
             controls used, and identifying numbers of major equipment used.
             Further, the Western Laboratory did not use any form of checklist to
             prompt analysts as to the documentation necessary to support their
             analyses.

             As noted earlier in the report, the Microbiology Division’s QAB had not
             made complete onsite reviews at the laboratories for a period of
             approximately 4 years, between 1995 and 1999. Although the 1995
             reviews did not cite any problems with the documentation being kept
             by the laboratories, the March and April 1999 reviews (whose
             purpose was to determine whether the laboratories’ microbiology
             testing would comply with ISO-25 Guidelines’ accreditation
             requirements) did cite such problems. These reviews disclosed an
             overall lack of documentation of the entire system, specifically in the
             areas of: 1) Quality Manual; 2) methods; 3) procedures; and 4) work
             instructions.

             The Microbiologist in Charge and Supervisory Chemists at the
             Western Laboratory, and the Quality Control Manager for
             Microbiology at the Midwestern Laboratory agreed that more
             documentation was needed to support sample results. We did not
             find any deficiencies in the documentation on file at the Eastern Field
             Laboratory.

Section II, Page 46                                  USDA/OIG-A/24601-0001-Ch
           Thus, we believe that FSIS needs to implement procedures, such as
           a uniform checklist used by all three laboratories, and more stringent
           supervisory controls, to ensure that the necessary documentation is
           being prepared to support the analyses conducted by the field
           laboratories.


                                  Require the laboratories to implement a
 RECOMMENDATION NO. 14            quality assurance system that ensures
                                  adequate documentation of analytical
                                  results, including but not limited to, the
       methods used, and incubation times and temperatures. Require
       supervisory personnel at the laboratories to ensure, as part of their
       reviews, that all necessary documentation is being prepared on an
       ongoing basis.

           FSIS Response

           FSIS agreed and is taking steps to review and, when necessary,
           enhance the documentation and supervisory oversight of all
           components of the laboratory systems by January 2001. FSIS
           projects that the laboratories will apply for ISO accreditation by April
           2001, and anticipate becoming accredited by December 2001.

           OIG Position

           We accept FSIS’ management decision.

                                  The three FSIS field service laboratories
      FINDING NO. 11              did not adequately document the
                                  maintenance performed on major pieces
EQUIPMENT MAINTENANCE WAS         of laboratory equipment and instruments.
NOT ADEQUATELY DOCUMENTED          This occurred because laboratory
                                  personnel stated that they were unaware
                                  that documentation of the maintenance
         performed was necessary, and supervisors did not verify that it had
         been documented.

           The USDA/FSIS Microbiology Laboratory Guidebook, 3rd Edition/1998
           (MLG), General Considerations, states that all instrumentation should
           be subjected to continuous maintenance and appropriate quality
           control procedures to insure unquestionably correct performance
           during use in all methods. Section 36.372 of the MLG states that all
           equipment must be maintained according to the manufacturer’s
           instructions. It also states that all equipment dispensing a designated

USDA/OIG-A/24601-0001-Ch                                       Section II, Page 47
             volume of any testing material such as media or reagents must be
             calibrated at least daily. This is particularly important with automated
             analytical equipment, such as Enzyme-Linked Immunosorbent Assay
             (ELISA) filler/washers and plate fillers, in order to ensure the correct
             amount of reagent is being added at each step in the process. In
             addition, it states that a record log of all validations, repairs,
             servicing, replacement parts, performance deviations, and corrective
             actions taken must be maintained for 5 years before being discarded.


             Overall, we found that additional documentation of maintenance and
             calibration was needed for major instruments and pieces of
             equipment at the three field laboratories. Specifically:

              •   There were no maintenance logs for the Dynex Immunoassay
                  System (DIAS) machines at the Midwestern laboratory, and the
                  maintenance performed on the DIAS machine at the Eastern
                  laboratory was not done timely. The DIAS machine is an
                  automated analytical machine used to perform the ELISA
                  screening test in Salmonella analyses. It includes a reader,
                  incubator, filler, reagent dispenser, washer, and stackers. This
                  machine is calibrated automatically when it is turned on to ensure
                  that the correct amount of reagents is added at each step. Also,
                  quarterly, the temperatures should be validated, the bottles,
                  tubes, caps, and trays should be cleaned, the O-rings should be
                  lubricated, and the wash system checked and flushed as
                  needed.

              •   The Midwestern and Western laboratories did not perform any
                  periodic maintenance on the VITEK Reader/Incubator (VITEK)
                  machine, and at the Eastern laboratory, the maintenance
                  performed on the VITEK machine was not documented. The
                  VITEK machine is an automated analytical machine that performs
                  the important final step of biochemical confirmation in Salmonella
                  and E.coli analyses. The VITEK machines at the Midwestern
                  and Western laboratories were under a service contract and they
                  will call a service technician if the machine malfunctions.
                  However, the Midwestern laboratory did not maintain a log on
                  the type of service performed. Various items on the VITEK
                  machine should be maintained on a daily, weekly, or monthly
                  schedule. Its dispenser should be cleaned, flushed, calibrated,
                  and sterilized, the dilutent should be changed, the colorimeter
                  should be cleaned and calibrated, the filler/sealer should be
                  cleaned, the reader/incubator’s temperature should be validated,
                  and its trays, filters, and rubber wheels should be cleaned.


Section II, Page 48                                   USDA/OIG-A/24601-0001-Ch
            •   The Western laboratory did not always adhere to their
                maintenance schedule for its LECO FP-2000 Protein Analyzer
                machines. These machines are used for protein analysis in food
                chemistry samples. The ballast tank should be inspected after
                every 1,000 tests, and the combustion tubes and O-rings should
                be changed quarterly.

            •   The Eastern laboratory did not maintain a logbook or record of
                maintenance for the agar sterilizer. It also did not have a
                temperature read-out and recorder. This machine is used to
                keep media hot. Some media will solidify when it cools. The
                temperature of the media needs to be monitored. The accurate
                preparation of various media is an important first step in all
                analyses.

           A chemist at the Western Lab stated that some of the preventative
           maintenance may have been performed but not documented. The
           Quality Control Manager for Microbiology at the Eastern Lab stated
           that maintenance had been performed monthly as required, but not
           documented. The Microbiologist-in-Charge at the Midwestern Lab
           stated that he was not aware that logs of maintenance should be
           maintained.

           During March and April 1999, the QAB conducted reviews at the
           three laboratories to determine changes needed for the laboratories’
           microbiology testing to comply with ISO-25 Guidelines’ accreditation
           requirements. These reviews disclosed that at the three laboratories,
           there was an overall lack of documentation of the entire system,
           specifically in the areas of: 1) Quality Manual; 2) methods; 3)
           procedures; and 4) work instructions.


                                  Implement a quality assurance system to
 RECOMMENDATION NO. 15            ensure that adequate maintenance,
                                  servicing, and calibration is both
                                  performed and documented as required
       for each piece of equipment used in testing.

           FSIS Response

           FSIS agreed and is developing additional procedures, work
           instructions, and forms that will further and more completely
           document the ongoing maintenance, service, and calibration of testing
           equipment. This will be completed by December 2000.

           OIG Position

USDA/OIG-A/24601-0001-Ch                                     Section II, Page 49
             We accept FSIS’ management decision.




Section II, Page 50                                 USDA/OIG-A/24601-0001-Ch
 CHAPTER 4         TIGHTER CONTROLS ARE NEEDED OVER THE
                   ACCREDITED LABORATORY PROGRAM



                                      FSIS, because of staffing restrictions, did
      FINDING NO. 12                  not perform sufficient onsite monitoring to
                                      ensure that accredited, non-Federal
 BETTER CONTROLS OVER THE             laboratories that tested official samples
  ACCREDITED LABORATORY               met all of the criteria needed to maintain
     PROGRAM NEEDED                   accreditation status.     In addition, the
                                      agency terminated its program of split
         sampling in 1994, thus reducing its ability to monitor the accuracy of
         the accredited laboratories’ test results on an ongoing basis. Finally,
         we found that FSIS did not have sufficient controls in place to ensure
         that accurate laboratory identification numbers accompanied test
         results submitted by accredited laboratories. As a result, the agency
         has reduced assurance that accredited laboratories are meeting all
         applicable standards, or official samples are tested only by FSIS-
         accredited laboratories.

            A prior OIG audit (Report No. 24099-0006-At, dated June 1991) of
            this area reported that the Accredited Laboratory Program was not
            cost effective because many private laboratories sought FSIS
            accreditation even though they did not test official samples for the
            agency, while FSIS did not charge fees to the laboratories for this
            service. In addition, the report disclosed that based on the results of
            check samples and split samples, approximately 50 percent of the
            310 accredited laboratories did not meet FSIS’ performance
            standards.

            Since that time, FSIS has instituted an accreditation fee of
            $1,500 annually for each accredited laboratory. In addition, the
            results of check samples sent to the accredited laboratories
            demonstrate a marked improvement in the proficiency of these
            laboratories. However, we did find weaknesses in the agency’s
            oversight of the Accredited Laboratory Program that need to be
            addressed.

            FSIS regulations state that in order for a laboratory to maintain
            accreditation it must report weekly, to the FSIS Eastern laboratory,
            the analytical results of all moisture, protein, fat, and salt content of
            official samples. In addition, for the most recent 3 years, laboratories

USDA/OIG-A/24601-0001-Ch                                        Section II, Page 51
             must maintain records of samples that have been analyzed and
             documentation of the receipt, analysis, and disposition of official
             samples. According to the Director of Chemistry and Toxicology, it is
             the goal of the division to annually conduct onsite reviews at one-third
             of the accredited laboratories.

             During fiscal years 1998 and 1999 there were about 140 and
             126 non-Federal laboratories, respectively, accredited by FSIS.
             From January 1998 through August 1999, FSIS database records
             show that 46 accredited laboratories analyzed a total of 920 domestic
             and import official samples. This represented a significant decrease in
             the number of accredited laboratories since our last audit. However,
             our review disclosed that the CTD made annual onsite reviews at less
             than 1 percent (1 of 140) of the accredited laboratories in fiscal year
             1998; and only 5 of 126 (4 percent) of the laboratories were reviewed
             in fiscal year 1999. The QAB Chief stated that staffing restrictions
             had prevented CTD from making the required field visits. In addition,
             we found that the onsite reviews performed by CTD did not evaluate
             whether the laboratories were complying with the requirement that
             they maintain records of their analyses for 3 years after they are
             performed.

             One method that FSIS could use to supplement the field visits would
             be to reinstitute the use of split sampling, which was discontinued in
             1994. Under this system of monitoring, selected samples tested by
             the accredited laboratories would be “split” for testing by both the
             laboratory and FSIS. Since only a fraction of the currently-accredited
             laboratories are actually testing official samples for FSIS, more
             emphasis on both the field visits and split-sampling could be
             concentrated on these laboratories.

             Our review also disclosed inaccuracies in the recording of test results
             to the FSIS’ database of accredited laboratories. The Laboratory
             Sample Flow System (LSFS) database is designed to identify all
             laboratory activity by the assigned number that is provided by FSIS to
             each laboratory at the time of its accreditation. Although FSIS has
             procedures in place to verify the accuracy of at least eight accredited
             laboratory data entries whenever the LSFS database is updated, we
             determined this control does not ensure that only test results from
             FSIS-accredited laboratories are accepted because the system does
             not flag incorrect entries that were not selected as part of the quality
             control review.

             We found that four nonexistent laboratories were identified as having
             analyzed seven official samples. Although we determined that
             accredited laboratories performed the tests, the laboratories were

Section II, Page 52                                   USDA/OIG-A/24601-0001-Ch
            incorrectly identified because either the plant number of internal
            laboratory number was incorrectly entered in the computer database
            as the accredited laboratory number. At the time of our audit, the
            database records for the laboratories had been inaccurate for over a
            year and because FSIS has no procedures for flagging incorrect
            entries, such discrepancies could remain undiscovered indefinitely.

            Since laboratories are required to report official sample results
            weekly to the Eastern Laboratory, an accurate activity report could
            be a useful tool to ensure that only accredited laboratories are listed.
            However, the CTD management official we interviewed stated that his
            division does not use and has never requested this report.
            Consequently, he was unaware of whether or not the accredited
            laboratories had analyzed official samples.

            Without performing field visits to accredited laboratories, FSIS’
            Chemistry and Toxicology Division could not ensure that these
            laboratories continued to demonstrate the proficiency needed to
            maintain their accreditation. In addition, because the LSFS does not
            automatically flag incorrect entries to ensure that laboratories
            performing tests of official samples are on the agency’s accreditation
            list, FSIS has limited assurance that official samples are being tested
            only by accredited laboratories. Since non-accredited laboratories
            are not subject to interlaboratory check samples and other quality-
            control requirements required by FSIS, the agency thus has no
            assurance of the accuracy of test results obtained by these
            laboratories.

                                      Strengthen the agency’s monitoring of
 RECOMMENDATION NO. 16                accredited laboratories, particularly those
                                      which test official samples for FSIS,
                                      through more frequent onsite visits and/or
       split sampling of official product samples.

            FSIS Response

            FSIS officials stated that split sampling was, based on prior
            experience, an ineffective means to ensure the accuracy of test
            results. However, the agency agreed to initiate an agreement or
            contract to perform more frequent accredited laboratory onsite visits.
            FSIS will implement this action by February 2001.




USDA/OIG-A/24601-0001-Ch                                        Section II, Page 53
             OIG Position

             We accept FSIS’ management decision.


                                         Ensure that all test results on official
  RECOMMENDATION NO. 17                  samples are performed only by FSIS-
                                         accredited laboratories.

             FSIS Response

             FSIS responded that it agreed with the recommendation to ensure
             that only FSIS-accredited laboratories perform test results on official
             samples.     FSIS’ proposed corrective actions were as follows:
             (1) Issue 1-year certificates of accreditation to laboratories in good
             standing; (2) send letters for probation/revocation by overnight mail;
             (3) notify personnel in the Technical Service Center of laboratories
             whose accreditations have been placed on probation or revoked; and
             (4) publish an updated listing of accredited laboratories on a regular
             basis. In addition, FSIS will seek a more extensive review of the
             Accredited Laboratory Program during FY 2001.

             OIG Position

             Although we agree that the corrective actions proposed by FSIS will
             strengthen the Accredited Laboratory Program, they do not address
             the fact that results from a non-accredited laboratory could potentially
             be accepted because FSIS’ computer system does not verify the
             accreditation number of the submitting laboratory. To reach a
             management decision, FSIS needs to provide us with its plan to
             address this internal control weakness.




Section II, Page 54                                   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 55
Section II, Page 56   USDA/OIG-A/24601-0001-Ch
EXHIBIT A – FSIS SAMPLING PROJECTS




Sampling     Product Type       Purpose of Test         No. of Plants
 Project                                                 in Sample
 Number                                                    Frame
ME7         RTE – Jerky        Listeria & Salmonella               281
            RTE – Small
ME15*       Diameter Cooked
            Comminuted …       Listeria & Salmonella               745
            RTE – Large
ME16        Diameter Cooked
            Comminuted …       Listeria & Salmonella               537
ME22*       RTE – Cooked
            Poultry Products   Listeria & Salmonella               472
                               Listeria/ Salmonella/
ME23*     RTE – Meat and       Staphylococcus                      126
          Poultry Salads …     Aurous
MM9       RTE – Cooked Beef,
          Roast Beef, Cooked
          Corned Beef          Listeria & Salmonella               311
          RTE – Sliced
MM11      Ham/Luncheon Meat    Listeria & Salmonella              358
MM14*     RTE – Cooked Meat    Species Identification            1106
          and Poultry
MT01      RTE - Fully Cooked
          Meat Patties         E.coli O157:H7                      100
          RTE – Dry & Semi-    Staphylococcal,
MT02      Dry Fermented        E.coli O157:H7,
          Sausages             Salmonella, & Listeria              292
MT03/MT04 RAW – Ground or
          Comminuted Beef      E.coli O157:H7                    1,730

RTE = Ready-To-Eat
* Frames Reviewed




USDA/OIG-A/24601-0001-Ch                                 Section II, Page 57
EXHIBIT B – AUDITEE RESPONSE TO DRAFT REPORT




Section II, Page 58               USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 59
Section II, Page 60   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 61
Section II, Page 62   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 63
Section II, Page 64   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 65
Section II, Page 66   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 67
Section II, Page 68   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 69
Section II, Page 70   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 71
Section II, Page 72   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 73
Section II, Page 74   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 75
Section II, Page 76   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 77
Section II, Page 78   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 79
Section II, Page 80   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 81
Section II, Page 82   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 83
Section II, Page 84   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 85
Section II, Page 86   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 87
Section II, Page 88   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 89
Section II, Page 90   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 91
Section II, Page 92   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 93
Section II, Page 94   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 95
Section II, Page 96   USDA/OIG-A/24601-0001-Ch
                                         ABBREVIATIONS


AOAC
 Association of Analytical Chemists ...................................................................................i

CTD
  Chemistry and Toxicology Division ............................................................................... iii

DIAS
  Dynex Immunuassay System............................................................................................45

ELISA
  Enzyme-Linked Immunuassary.......................................................................................... 4

HACCP
 Hazard Analysis And Critical Control Point System........................................................ 3

ISO
  International Organization For Standardization................................................................. 5

MLG
 Microbiology Laboratory Guidebook............................................................................... 5

NRP
 National Residue Program................................................................................................ 4

PBIS
  Performance Board Inspection System.............................................................................. 4

QAB
 Quality Assurance Branch............................................................................................... iii

SPOSL
  Special Project and Outbreak Support Laboratory..........................................................39




USDA/OIG-A/24601-0001-Ch                                                                        Section II, Page 97
                       GLOSSARY OF TERMS


Accredited Laboratory – A nonfederal analytical chemistry laboratory recognized
by FSIS as competent to analyze official meat and poultry samples for moisture,
protein, fat, and salt content, and/or certain classes of chemical residues.

Antibiotic Residue – The portion of antimicrobial drugs that remains in the tissues
of food animals, which can result in human illnesses.

Campylobacter – A pathogenic organism commonly found in poultry and other food
of animal origin, including pork and beef. Campylobacter infections generally cause
intestinal distress.

Check Sample – A food product sample, in the form that is commonly sent to the
field service laboratories for analysis, that has had a known amount of a pathogenic
organism or antibiotic or chemical residue added, for the purpose of evaluating the
accuracy of the service laboratory’s analyses. A check sample that is unmarked,
i.e. disguised as an official product sample, is referred to as a “blind” sample.

Chemical Residues – The portion of pesticides that remains in the tissues of food
animals, which can result in human illnesses.

E.coli O157:H7 – The strain of the pathogenic organism escherichia coli that
causes potentially serious illness, particularly for children and individuals with
weakened immune systems. It is found in ground beef, raw milk, and chicken.

Establishment – A federally inspected meat, poultry, or eggplant whose function is
to slaughter food animals and/or process food products.

Extraneous Material – Any object that is foreign to the food product in which it is
found.

Farm-to-Table – The continuum of animal preparation, beginning with animal
production and slaughter, continuing with processing and distribution, and ending
with the sale of food products to the consumer.

Field Service Laboratories – The three FSIS laboratories that provide analytical
services in the disciplines of chemistry, microbiology, and pathology, located in
Athens, GA; St. Louis, MO; and Alameda, CA.

Section II, Page 98                                   USDA/OIG-A/24601-0001-Ch
Food Chemistry – The program area that analyzes food products for moisture,
protein, fat, and salt content, as well as drug, pesticide, and other chemical
residues.

Foodborne Pathogens – A disease-causing microorganism that is carried or
transmitted to humans by food.

Hazard Analysis and Critical Control Points System (HACCP) – FSIS’ current
process for inspecting meat and poultry establishments, stressing the prevention of
contamination before it occurs. Under this system, establishments monitor their
own production to identify and remove the threat of contamination, with FSIS
providing oversight to ensure that establishments have implemented adequate
HACCP programs.

Inspector – An FSIS employee who is responsible for inspecting meat, poultry, and
egg products and operations in slaughter and processing establishments, for the
purpose of ensuring that these food products are safe for human consumption.

Listeria monocytogenes – A pathogenic organism usually found in vegetables,
milk, cheese, meat, and seafood.

Microbiological Testing – The isolation and identification of foodborne pathogenic
microorganisms such as, E.coli, Listeria, and Salmonella.

Nitrosamines – A carcinogenic chemical compound that is typically found in cured
and processed bacon products.

Official Product Samples – Portions of raw and ready-to-eat food products
collected by inspectors in Federally inspected establishments, and then sent to
FSIS laboratories for analysis.

Presumptively Positive – A product sample analyzed with an enzyme-linked
immunoassay screening test and found to likely contain a pathogenic organism.
These samples cannot be confirmed positive until traditional culture and biochemical
tests are performed.

Proficiency Testing – A program of activities that provides assurance that the
laboratory is competent to perform analyses of official samples.

Ready-to-Eat Products – Food products that have been prepared to the point
where they are ready for human consumption.

Salmonella – A pathogenic organism that is commonly found in poultry, eggs, beef,
and other foods of animal origin. Salmonella typically causes intestinal distress, but

USDA/OIG-A/24601-0001-Ch                                          Section II, Page 99
can be fatal to young children, the elderly, and persons with weakened immune
systems.

Sample Request – A request made by FSIS’ Office of Public Health and Science
for an FSIS inspector to collect a specific product in a specific establishment,
based on a specific sampling project.        The request is made on FSIS
Form 10,210-3.

Sampling Frame – A listing of establishments that produce products of a
designated type. The sampling frames are maintained on FSIS’ MARCIS
database.

Sampling Projects – Different microbiological test(s) to be performed on specific
types of products. Samples are collected from establishments that produce the
type of product of interest. For example, E.coli O157:H7 in Ready-to-Eat Meat
Patties is one sampling project.

Screening Test Kit – A commercially produced kit that contains enzyme-linked
immunosorbent assay (ELISA) tests that will initially screen a sample as
presumptively positive or negative. This test allows the laboratory to eliminate
many samples from the time-consuming traditional culture and biochemical tests
that are necessary to confirm the presence of a pathogenic organism.

Species Identification Testing – An analysis to determine the species of the
animal that is contained in the sample.

Xenobiotic – A chemical compound, such as a drug, pesticide, or carcinogen, that
is foreign to a living organism.




Section II, Page 100                                USDA/OIG-A/24601-0001-Ch
